<html>
<title> - BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN AVIATION MANUFACTURING</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]










 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN 
                         AVIATION MANUFACTURING

=======================================================================

                                (115-2)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2017

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-210 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        JERROLD NADLER, New York
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
DUNCAN HUNTER, California            ELIJAH E. CUMMINGS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  RICK LARSEN, Washington
LOU BARLETTA, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              GRACE F. NAPOLITANO, California
BOB GIBBS, Ohio                      DANIEL LIPINSKI, Illinois
DANIEL WEBSTER, Florida              STEVE COHEN, Tennessee
JEFF DENHAM, California              ALBIO SIRES, New Jersey
THOMAS MASSIE, Kentucky              JOHN GARAMENDI, California
MARK MEADOWS, North Carolina         HENRY C. ``HANK'' JOHNSON, Jr., 
SCOTT PERRY, Pennsylvania            Georgia
RODNEY DAVIS, Illinois               ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
ROB WOODALL, Georgia                 DINA TITUS, Nevada
TODD ROKITA, Indiana                 SEAN PATRICK MALONEY, New York
JOHN KATKO, New York                 ELIZABETH H. ESTY, Connecticut, 
BRIAN BABIN, Texas                   Vice Ranking Member
GARRET GRAVES, Louisiana             LOIS FRANKEL, Florida
BARBARA COMSTOCK, Virginia           CHERI BUSTOS, Illinois
DAVID ROUZER, North Carolina         JARED HUFFMAN, California
MIKE BOST, Illinois                  JULIA BROWNLEY, California
RANDY K. WEBER, Sr., Texas           FREDERICA S. WILSON, Florida
DOUG LaMALFA, California             DONALD M. PAYNE, Jr., New Jersey
BRUCE WESTERMAN, Arkansas            ALAN S. LOWENTHAL, California
LLOYD SMUCKER, Pennsylvania          BRENDA L. LAWRENCE, Michigan
PAUL MITCHELL, Michigan              MARK DeSAULNIER, California
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)


                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman

DON YOUNG, Alaska                    RICK LARSEN, Washington
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
DUNCAN HUNTER, California            ANDRE CARSON, Indiana
BLAKE FARENTHOLD, Texas              CHERI BUSTOS, Illinois
BOB GIBBS, Ohio                      ELEANOR HOLMES NORTON, District of 
DANIEL WEBSTER, Florida              Columbia
JEFF DENHAM, California              DINA TITUS, Nevada
THOMAS MASSIE, Kentucky              SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         JULIA BROWNLEY, California
SCOTT PERRY, Pennsylvania            DONALD M. PAYNE, Jr., New Jersey
RODNEY DAVIS, Illinois               BRENDA L. LAWRENCE, Michigan
MARK SANFORD, South Carolina         MICHAEL E. CAPUANO, Massachusetts
ROB WOODALL, Georgia                 GRACE F. NAPOLITANO, California
TODD ROKITA, Indiana                 STEVE COHEN, Tennessee
BARBARA COMSTOCK, Virginia           HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LaMALFA, California             Georgia
BRUCE WESTERMAN, Arkansas            RICHARD M. NOLAN, Minnesota
PAUL MITCHELL, Michigan, Vice Chair  PETER A. DeFAZIO, Oregon (Ex 
JASON LEWIS, Minnesota               Officio)
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)





















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, accompanied by Dorenda Baker, 
  Director, Aircraft Certification Service, FAA..................     7
Alan H. Epstein, Ph.D., Vice President of Technology and 
  Environment, Pratt & Whitney...................................     7
John Hamilton, Vice President of Engineering, Boeing Commercial 
  Airplanes......................................................     7
Michael Thacker, Senior Vice President of Engineering, Textron 
  Aviation.......................................................     7

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Margaret Gilligan................................................    42
Alan H. Epstein, Ph.D............................................    53
John Hamilton....................................................    58
Michael Thacker..................................................    60

                       SUBMISSIONS FOR THE RECORD

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration, response to question for the 
  record from Hon. Andre Carson, a Representative in Congress 
  from the State of Indiana......................................    52
Letter of February 14, 2017, from Chuck Wiplinger, President and 
  COO, Wipaire, Inc., to Hon. Jason Lewis, a Representative in 
  Congress from the State of Minnesota, submitted by Hon. Lewis..    69
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 BUILDING A 21ST-CENTURY INFRASTRUCTURE FOR AMERICA: STATE OF AMERICAN 
                         AVIATION MANUFACTURING

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2017

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The subcommittee will please 
come to order. Thank you all for being here. I would like to 
ask unanimous consent that Members that are not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    OK, without objection, so ordered.
    Before I begin my statement, I would like to take a moment 
to recognize that February 12th was the eighth anniversary of 
the tragic crash of the Colgan flight 3407 that claimed the 
lives of 50 people. This anniversary is a vivid reminder to all 
of us that ensuring safety of our aviation system is and will 
continue to be our top priority. I want to thank the Colgan 
family members for their continued dedication and involvement 
and advocacy.
    Today the Aviation Subcommittee will hold its first hearing 
of the 115th session of Congress. This hearing is also the 
first in a series of hearings to prepare for the FAA 
reauthorization bill. This Congress, the Transportation and 
Infrastructure Committee is looking to the future and how we 
build a 21st-century infrastructure for America. With this in 
mind, today the subcommittee will discuss the state of aviation 
manufacturing, the challenges it faces, where it is heading in 
the 21st century, and how we ensure the continued success of 
this segment of the aviation infrastructure.
    Aviation manufacturing is a critical sector of our Nation's 
economy that contributes billions of dollars and supports 
millions of good-paying American jobs. The United States has 
always been the gold standard in aviation safety, as well as 
the leader in aviation manufacturing. U.S. civil aircraft 
manufacturing is a top net exporter, with U.S. aviation goods 
being delivered throughout the world. However, recently, global 
competition, as well as redundant, outdated, and inefficient 
rules and regulatory processes have jeopardized that lead.
    The FAA plays an important role in ensuring that all 
aircraft and aircraft components made in the United States meet 
specific design and production safety standards. This role is 
absolutely critical to ensure that safety is never compromised. 
It is the FAA Tech Center in my district in South Jersey that 
all certification research is performed. The Tech Center is 
finding more and more ways to improve airport designs and 
procedures, as well as develop fire suppression capabilities 
for aircraft.
    Yet, the certification process has its problems. As 
manufacturers design and build to meet those standards, they 
can experience needless and harmful bureaucratic delays, both 
internationally and domestically. These delays can be very 
detrimental to U.S. manufacturers trying to compete globally 
where every day of delay can mean real losses in both profits 
and jobs.
    As the aviation industry expands its international reach, 
and introduces new technologies and innovations, it is critical 
the FAA certification and regulatory process adapt and respond. 
The FAA must leverage the expertise of the private sector and 
fully utilize all of the authorities it has been granted. 
Enabling our aviation manufacturers to enter new markets and 
innovate, while ensuring the highest level of safety, is a top 
priority of this subcommittee.
    Today I look forward to hearing our witnesses' viewpoints 
on the state of American aviation manufacturing and where they 
believe it is headed in the 21st century. I also want to hear 
their suggestions on what role the Government can play to 
support the aviation manufacturing industry's continued 
success. I thank all of the witnesses for joining us today.
    And finally, I would like to take the opportunity to thank 
Ms. Peggy Gilligan for her years of service. As many of you 
know, this will be Peggy's last hearing, testifying before our 
subcommittee. Peggy began her career with the FAA in 1980, and 
this spring, after 37 years of dedicated service, she will be 
retiring.
    I would like to thank you for your dedicated service and 
all that you have contributed to the FAA and aviation.
    Before I recognize my colleague, Mr. Larsen, for his 
comments, I would like to ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks and include extraneous material for the record of this 
hearing.
    Without objection, so ordered.
    And now I would like to yield to Mr. Larsen.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing on the state of American aviation 
manufacturing.
    The U.S. aviation industry is an economic powerhouse. In 
2014 civil aircraft manufacturing in the U.S. generated a total 
output of more than $143 billion, an increase of more than $20 
billion since 2012. This number does not account for the tens 
of billions of dollars in output from engine and aircraft parts 
manufacturing, and this topic naturally hits close to home for 
me.
    According to the State of Washington in 2014, the aerospace 
industry generated over $85 billion in economic activity 
throughout the State. More than 1,300 Washington aerospace 
businesses support more than 260,000 jobs and travel for 
billions of passengers each year. These companies range from 
Boeing, whom this panel will hear from today, to the many small 
businesses that are a critical part of the aviation supply 
chain, and there is some discussion going on in Lynnwood, 
Washington, today, in my district, at the Pacific Northwest 
Aerospace Alliance conference on these very issues.
    In 2014, 95 percent of all commercial airplanes produced in 
North America were manufactured in and took their maiden 
flights from Washington State. So, needless to say, 
manufacturing and certification are critical to my home State, 
but many Members here today have a robust aviation 
manufacturing presence in their districts.
    The issues we explore this morning have been explored 
before by this panel, and I thank Chairman LoBiondo for 
remaining focused on them. Without question, the predictable 
and timely certification of aircraft and aircraft components is 
critical for domestic manufacturers to get their products to 
market.
    I look forward to hearing from all of the witnesses about 
what difficulties U.S. manufacturers face, what the FAA and 
this subcommittee can do to make the agency's certification 
process more consistent and efficient, while providing nothing 
less than the highest level of safety.
    To that end, I understand the FAA's certification workload 
is constantly growing, while the size of its inspection 
workforce is not. The FAA needs adequate staffing resources to 
do the job and keep pace with new demands and new technologies. 
This is one reason the FAA's Organization Designation 
Authorization program, or ODA, is critical to making the 
certification process more efficient. So I look forward today 
to hearing about ODA, how the program could be better used, and 
the FAA's recent efforts in this area.
    A common theme I hear during conversations with 
manufacturers as well is they're competing in an increasingly 
crowded global market. Chairman LoBiondo and I asked the 
Government Accountability Office to explore the FAA's 
certification process in the U.S. as it compares with those of 
its counterparts around the world. The resulting 2015 report 
highlighted many of the challenges in getting products 
certified and to market. The FAA's product certification is and 
must remain the gold standard abroad, so that U.S. 
manufacturers remain competitive. So I look forward to hearing 
about the progress in that area, specifically.
    Last year the committee had been moving forward towards 
passage of a long-term FAA reauthorization. Bipartisan 
compromise and significant industry input produced an entire 
certification reform title in the bill, the AIRR Act, that 
would have brought long overdue changes to the FAA's 
certification process. Certification, improved grant and safety 
programs, established rules of the road for unmanned aircraft 
systems, and boosted consumer protection are not back-burner 
aviation issues; they are front-burner aviation issues. And the 
next FAA reauthorization should be a long-term bill, a 
comprehensive bill, and address the issues on today's agenda.
    Chairman LoBiondo, before hearing from our witnesses, I too 
would like to extend my gratitude to Peggy. We will lose a 
visionary leader, a tireless advocate for aviation safety when 
Peggy Gilligan retires. But after 37 years, she has earned it.
    Your exceptional service and unwavering dedication to the 
agency and the public is inspiring, and I thank you very much. 
I am sure I speak on behalf of my colleagues, as well, when I 
say you will be missed.
    So thank you, Mr. Chairman. I look forward today to hearing 
from our witnesses.
    Mr. LoBiondo. Thank you, Rick. I would like to recognize 
Chairman Shuster for any opening remarks.
    Mr. Shuster. Thank you, Mr. Chairman. Thank you for having 
this hearing today. I appreciate you and Ranking Member Larsen 
for putting this together.
    I just want to start off by just echoing what my colleagues 
have said about Ms. Gilligan. Her upcoming retirement is well 
deserved. We appreciate the service that you have given the 
Nation, and look forward to--hopefully you are not going to 
stay out too long, you will figure out some way to reengage 
with all the knowledge that you have and we certainly can 
utilize. So thank you very much for that.
    I look forward to today's discussion, to hear from the FAA, 
but also the manufacturers, and find out what is going on in 
their world and learning. I understand that a few of you have 
some pretty good ideas, some strong ideas, based on experience, 
that work. So we look forward to hearing that.
    We are--this is the first in a series of hearings talking 
about aviation and we in Congress can work with the industry to 
build a 21st-century aviation system.
    Aviation manufacturing, which was mentioned, I'm not going 
to go through the numbers--we heard it, we know it, it is 
incredibly important to the United States of America, the 
manufacturing of aviation in this country. And I will say we 
have a President in the White House that is committed to making 
sure that manufacturing in this country is strong and viable.
    And also, it is probably the first time we have had a 
President that has used the airspace more than anybody else 
coming into office. He owns a plane, he knows--he is in the air 
constantly. Quite frankly, I think he probably uses an airplane 
like most of us use an automobile to get around. And so we have 
got somebody that, again, really understands, and understands 
the need to make sure that, if we are manufacturing, how we 
have to streamline these agencies and Government to help the 
manufacturers move forward.
    And again, we have had longstanding leadership in aviation. 
In fact, everyone knows we invented it. We need to maintain 
that lead. And one of the reasons we have been able to maintain 
that lead is because of our high level of safety, the current 
safety, and all of our manufacturers sitting at the table, I 
know they are committed to safety. If they weren't, they 
probably wouldn't have businesses, because their business is 
driven by safety. They have got to have the safest product out 
there, because we depend on it when we are using those 
products.
    So again, I look forward to talking about those types of 
things. And again, it is important that, as we move forward, 
that the Government agency that oversees this, that regulates 
it, is just as innovative as our industries have been, moving 
forward with new programs to, again, make sure safety is job 
number one, but that we are out there making sure that our 
manufacturers aren't looking to other countries.
    And I have heard the stories about, you know, when you hear 
countries across the world that move--industries move faster 
than ours, when it is--when you hear it is maybe Brazil or 
Canada or China, you think, well, OK. But I have heard the 
stories the Europeans move faster than we do when it comes to 
moving these air frames and these avionics forward. And if the 
Europeans are moving faster than we are, we are really 
threatened, I believe.
    We are threatened by what other countries are doing, but 
when Europe does it we have really got to stand up and pay 
attention and make sure we are doing the right thing, because I 
don't want to see the aviation industry go the way of 
electronics, autos, textiles, and steel. As I said, this is so 
important to the Nation, and we need to be committed to making 
sure we have the best oversight that we can have to ensure 
safety, but also moving forward with manufacturers to continue 
to maintain our lead in the world when it comes to aviation.
    So again, I look forward to the discussion, and thank you 
all for being here. Thank you for giving us your time today. 
And I yield back.
    Mr. LoBiondo. Thank you, Mr. Shuster.
    Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I think it was just 
about 2 years ago today that you convened a hearing on this 
same topic, as we were approaching FAA reauthorization. In the 
end, we came to a bipartisan consensus on what we need to do to 
reform certification. And I would hope that we can reach that 
same point again very quickly this year. It was the other 
issues in the bill that precluded the adoption of a longer term 
authorization. And hopefully we can do that this year.
    We did adopt at least one change. I had heard from a number 
of people, particularly dealing with the Chinese aviation 
authority, that our manufacturers are over there without FAA 
representation. So, essentially, a company dealing with the 
Government, as opposed to a Government-to-Government supporting 
our companies. And I got a provision included to allow the FAA 
to accept reimbursements. Unfortunately, it seems that the FAA 
has been unable to figure out a way to accept reimbursements, 
which should take about 10 minutes. So I will be asking about 
that today. I really want to see that move forward, and I want 
to help rein in the abuses of the Chinese and others.
    Another concern is the charges that are levied. The EASA 
[European Aviation Safety Agency], you know, to--just to 
revalidate an FAA-issued certificate, charges about 95 percent 
of what they would charge for a manufacturer to bring in a new 
product and go through their full certification. That seems 
unreasonable. And I think it would be critical that, in this 
long-term bill, that we put in provisions for reciprocity. That 
is, if the Europeans want to do that to our manufacturers, then 
we are going to do it to their manufacturers for the same 
price. And then perhaps we can bring them to the table and get 
more reasonable.
    And then, just--not to engage in the debate over the 
privatization of air traffic, but, you know, that is what 
caused these provisions to stall last year. And I would observe 
that certification is, when the industry is polled broadly, the 
number-one issue. And reforming it is one thing, but it is 
going to--in the proposal that passed this committee last 
time--it is going to be left over--subject to the vicissitudes 
of the appropriators, and sequestration, and all the other 
problems that we have had. While over here we would have the 
ATO [Air Traffic Organization], but yet the ATO can't move 
forward without the certification.
    So, I think sundering the agency is problematic when the 
certification is recognized by so many as the number-one 
problem we have today with the FAA.
    And, like everyone else, I would like to thank Peggy 
Gilligan, a lifetime of work. And, you know, I guess this is 
probably the last time we will have you here formally, but I 
wish you well in a well- and hard-earned retirement. And your 
legacy is that, you know, you have been a warrior for safety, 
and the industry has the best safety record during your tenure 
as the chief safety officer of any time in the history of the 
United States. And I think a lot of people can thank you for 
that. You kept them safe.
    With that, I yield back the balance of my time.
    Mr. LoBiondo. Thank you, Mr. DeFazio. Now we will turn to 
our first panel.
    First is Ms. Peggy Gilligan, Associate Administrator for 
Aviation Safety for the FAA, who is accompanied by Ms. Dorenda 
Baker, Director of the Aircraft Certification Service for the 
FAA.
    Mr. John Hamilton, vice president of engineering for Boeing 
Commercial Airplanes.
    Mr. Michael Thacker, senior vice president of engineering 
for Textron Aviation.
    And at this time I would like to recognize Representative 
Esty to introduce one of our witnesses that is from her home 
State of Connecticut.
    Ms. Esty?
    Ms. Esty. Thank you, Chairman LoBiondo and Ranking Member 
Larsen, for inviting me to participate in today's hearing. I am 
delighted to have the opportunity to introduce our final 
panelist, actually, who is in the middle of the table, Dr. Alan 
Epstein from Pratt & Whitney in my home State of Connecticut. 
And he is vice president of technology and environment. He is 
responsible for coordinating technology across all of Pratt & 
Whitney, and has a distinguished career at MIT, my father and 
grandfather's alma mater, and we are delighted for your 
leadership and your insight to help us guide important 
decisionmaking in this committee to have robust and safe 
aircraft in the United States and across America.
    Thank you very much for joining us. We are very proud of 
your work.
    Mr. LoBiondo. Thank you, Congresswoman Esty.
    Ms. Gilligan, you are recognized for a statement.

  TESTIMONY OF MARGARET GILLIGAN, ASSOCIATE ADMINISTRATOR FOR 
 AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION, ACCOMPANIED 
  BY DORENDA BAKER, DIRECTOR, AIRCRAFT CERTIFICATION SERVICE, 
 FAA; ALAN H. EPSTEIN, PH.D., VICE PRESIDENT OF TECHNOLOGY AND 
ENVIRONMENT, PRATT & WHITNEY; JOHN HAMILTON, VICE PRESIDENT OF 
ENGINEERING, BOEING COMMERCIAL AIRPLANES; AND MICHAEL THACKER, 
     SENIOR VICE PRESIDENT OF ENGINEERING, TEXTRON AVIATION

    Ms. Gilligan. Thank you, Mr. Chairman and Chairman Shuster, 
as well as Ranking Member Larsen and Mr. DeFazio.
    First, let me thank you for those very kind words. I am 
very proud of the FAA's accomplishments during my tenure. And I 
want to thank this committee for the strong support you have 
provided to us for all of those efforts. And I would also like 
to thank you for all the opportunities I have had to appear 
before you over the years. Some of those have been very 
difficult, challenging hearings. This one, I am pleased to say, 
I think will be a very positive hearing, where we and our 
industry can share what we are doing to continue to build this 
industry and support the American economy.
    I can tell all of you that the state of American aviation 
manufacturing is strong. The FAA is proud to partner with 
industry to find ways to make it even stronger, and to support 
innovation. Civil aviation manufacturing is the strongest trade 
sector for net exports at $60 billion. And, as the chairman and 
others noted, the manufacturing sector supports 1.5 million 
jobs in the U.S. economy, and contributes $165 billion to the 
GDP.
    But from my perspective, more importantly, it contributes 
to our outstanding aviation safety record, where we have seen 
no passenger fatalities in U.S. airline operations for more 
than 8 years. This accomplishment, our outstanding safety 
record, is not the result of luck or happenstance. It is the 
result of FAA, manufacturers, operators, and aviation labor, 
working together to establish sound safety standards and 
practices.
    And the bedrock of this achievement, the bedrock of our 
safety record, is the FAA's certification process itself, which 
assures the American public and Congress that our manufacturers 
are meeting our safety standards. This committee has asked FAA 
to improve the process for certifying aviation products, and I 
am pleased to share with you what we have accomplished.
    You wanted performance objectives and metrics. We have 
developed a joint industry-agency certification scorecard. The 
sample scorecard that you have in front of you has three 
sections. At the bottom we track the manufacturer's 
noncompliance with standards and the implementation of 
corrective actions to assure us and them that everything is 
being done properly.
    In the middle, we measure how well FAA is optimizing 
delegation, based on the company's capabilities. And at the 
top, we actually rate each other's performance. This serves as 
a tool to have open communication between the manufacturer and 
the FAA office to assure that we are each held accountable to 
meet our responsibilities.
    You wanted us to delegate more responsibility to 
manufacturers. The scorecard shows that we're doing that. 
Eighty-four companies hold Organization Designation 
Authorizations, or ODA. And according to the GAO, FAA designees 
perform more than 90 percent of certification activities. That 
means FAA is optimizing our involvement and holding 
manufacturers accountable to their capabilities. And the 
industry has been clear with us; they appreciate our efforts in 
this area.
    But we also know that, to respond to new business models 
and innovation like additive manufacturing or electric 
propulsion, we need to be agile. And that is why we are 
transforming the aircraft certification service. And I have 
provided more details on that transformation in our written 
testimony.
    You wanted a process to resolve disputes that slow 
certification. Based on industry recommendations, we developed 
a regulatory consistency communication board that allows for 
unresolved issues to be addressed in a timely fashion by a team 
of safety and legal experts.
    You wanted us to provide support when our manufacturers 
sell products overseas. Starting with Europe and Canada, we 
have agreed to accept each other's approvals of repairs, of 
parts, and of basic aftermarket modifications, with no further 
technical review. We intend to extend this approach to Brazil.
    We are also working with other national aviation 
authorities in countries that do considerable business with our 
U.S. manufacturers. For example, just last week Ms. Baker was 
in China, working with her counterpart, to expand and improve 
the use of our bilateral agreement. The prompt validation of 
U.S.-designed aircraft like the 737 MAX, is our top priority in 
working with China. And the more our international partners can 
rely on FAA certification, the more efficient it will be for 
U.S. manufacturers.
    You wanted us to make it easier for the GA fleet to get 
safety equipment in the cockpit. First we enabled the 
installation of angle-of-attack indicators to address loss of 
control, the leading cause of fatalities in general aviation. 
We built on that experience and issued policy for installing 
other nonrequired safety-enhancing equipment. And we are 
beginning a prototype program that streamlines production 
requirements for more modern equipment.
    And, most importantly, with the strong support of this 
committee, we issued a new set of design standards for general 
aviation aircraft: the rewrite of part 23. This rule will allow 
innovation and efficiency in GA aircraft design and 
manufacture, while assuring the right level of safety.
    We have made tremendous progress, but there is more to do. 
And just last week we kicked off a committee with industry to 
foster collaboration in an open and transparent manner. We 
committed to develop a blueprint to establish shared objectives 
and priorities. This will allow FAA to meet future needs and 
ensure that aviation manufacturers remain competitive in the 
global marketplace.
    Thank you again for this opportunity and for the many 
opportunities throughout my career, and I am happy to answer 
your questions.
    Mr. LoBiondo. Thank you, Ms. Gilligan, very much. Dr. 
Epstein, you are recognized for your statement.
    Dr. Epstein. Thank you, Mr. LoBiondo and members of the 
subcommittee. I am Alan Epstein, vice president of technology 
and environment at Pratt & Whitney. And our dependable engines 
have powered aircraft for over 90 years, with over 75,000 now 
in the field.
    Pratt is part of the United Technologies Corporation, a 
global enterprise with a long history of pioneering innovation 
in aviation and building systems. As noted, aerospace is 
America's largest manufacturing export. I make the number at 
$80 billion a year. It seems to be an elusive number.
    While marquee aircraft make up about half of this total, 
famous names like Boeing and Cessna, the export of aircraft 
components such as engines and cells and landing gear are of 
equal value. Indeed, much of the component content of the 
world's civil aircraft is American, even if the airplanes carry 
the name of European, Brazilian, or Chinese manufacturers.
    And of course, American aviation manufacturing is about 
more than just dollars. It is about the 1.7 million Americans 
who are employed at this industry.
    The most recent surge in aircraft orders has a lot to do 
with Pratt & Whitney's geared turbofan engine. The GTF and the 
competitive responses resulted in orders valued at almost $800 
billion. This success stems from the GTF's dramatic reduction 
in fuel burn and noise.
    For example, when the new aircraft take off from La Guardia 
Airport, about half a million fewer people will be impacted by 
noise. This success means that Pratt will be doubling 
production over the next few years.
    Part of this growth depends upon manufacturing innovation, 
bringing moving engine assembly lines to Connecticut and 
Florida, cryogenic machining to Maine, advanced coatings to New 
York, hybrid airfoils to Michigan, and additive manufacture to 
Georgia. You need the best people to make the best products. 
Pratt plans to hire 25,000 people over the next decade. To 
foster 21st-century skills on the factory floor, we support 
community colleges in many States, including Connecticut, 
Maine, New York, Georgia, Michigan, Texas, and Florida.
    The strength and experience of the FAA is an important 
competitive advantage for U.S. industry. FAA production 
certification is required for new manufacturing technologies 
and new suppliers. As part of our expansion, Pratt has worked 
with the FAA to gain production certification at new engine 
assembly sites, and approval of new suppliers. Partnering with 
the FAA through the organizational designated authority system 
has proven extremely helpful. ODA for manufacturing approval 
works, and it works well.
    The FAA must continue to progress in the delegation of 
responsibilities to certificate holders. Pratt strongly 
supports the actions already deployed under the FAA 
accountability framework initiative, and looks forward to 
teaming on air transformation.
    As Benjamin Franklin said, ``an investment in knowledge 
pays the best interest.'' We work with the FAA on advanced 
technologies to reduce fuel burn, emissions, and aircraft 
noise: notably, the FAA's CLEEN [Continuous Lower Energy, 
Emissions, and Noise] program. Recently, the FAA has been 
proactive in exploring the certification implications of new 
technology such as additives manufacture.
    One industry concern is the aging certification workforce. 
A lot of talent will be retiring in the next few years, and to 
provide the support U.S. industry needs, the FAA must be 
properly funded and authorized to hire and train replacements. 
A strong, competent, flexible FAA is an important enabler for 
U.S. industry.
    Competition is fierce. Other nations have been ramping up 
Government civil aeronautics investment as the U.S. has dropped 
its own. U.S. research down by 40 percent, the EU up by a 
factor of 10. China, the newest entrant, has announced large 
investments in civil aviation, both for airplanes and, most 
recently, billions for engines.
    U.S. aviation manufacturing is alive and well. The Federal 
role is critical to America's largest manufacturing export 
industry. We must continue to nurture the public-private 
partnership that has served this country so well. Thank you.
    Mr. LoBiondo. Thank you, Dr. Epstein.
    Mr. Hamilton?
    Mr. Hamilton. Good morning. Chairman LoBiondo, Ranking 
Member Larsen, members of the committee, thank you for this 
opportunity to provide Boeing's perspective on the state of 
commercial aerospace manufacturing and the policy changes 
facing our business.
    I am John Hamilton, vice president of engineering for 
Boeing Commercial Airplanes, and I am proud to be here today to 
represent the 148,000 Boeing employees who design, build, and 
certify the best aerospace products in the world.
    First I commend the committee for the bipartisan reform 
included in the FAA reauthorization. We appreciate the bold 
vision of this committee and the continued focus on ensuring 
the strength of domestic aerospace manufacturing.
    For context it is important to note Boeing's place in the 
U.S. and world economy. Boeing remains the Nation's largest 
exporter, exporting $56.8 billion of products and services in 
2016. Last year we delivered 748 commercial airplanes, with 80 
percent of those overseas. We assemble all of our aircraft in 
the United States, and we are proud that 80 percent of our 
company's suppliers are here in the United States.
    Annually, we spend roughly $50 billion in the U.S., far 
more than any other company that produces large, commercial 
aircraft. We are proud to sell American-made products to all 
corners of the globe, which is why we have long supported trade 
policies and trade agreements that open markets, facilitate the 
movement of goods across borders, and level the international 
playing field.
    More than 90 percent of our workforce is based in the 
United States, along with 1.5 million jobs throughout the 
supply chain. The biggest markets for our products over the 
next 20 years are in Asia and the Middle East. And we need 
Congress and the new administration, including the FAA, to 
support our efforts to win in these markets. Tens of thousands 
of U.S. jobs in our industry are at stake.
    The FAA's role in this global competition is critical. 
Every new Boeing airplane, type-certified by the FAA, must be 
validated by its foreign regulatory counterpart in every 
country for which we export a product. This process is not 
meant to be a recertification. A validation should be just 
that, validating that the FAA conducted the type certificate 
work to the standards of the foreign regulatory authority in 
question. This process should be quick and efficient. But in 
some cases it can take upwards of 14 months.
    For example, 83 different customers from 43 countries have 
ordered our newest product offering, the 737 MAX. The FAA and 
Boeing must work with each foreign regulatory authority to get 
approval to deliver our aircraft to those customers. This is a 
time-consuming task and requires FAA resources and, more 
importantly, a strong working relationship between the FAA and 
foreign regulators.
    The FAA aircraft certification service cannot efficiently 
complete these critical validation activities without resources 
and support from Congress and the prioritization and focus from 
FAA's senior leadership. This work cannot be viewed as 
secondary or a lower priority function at the FAA. It is a 
critical priority for Boeing and all U.S. aerospace exporters. 
Congress must continue to support and prioritize these efforts.
    With respect to our day-to-day interactions with the FAA on 
certification activities, we have seen progress in efforts to 
streamline the process, and hope that, with continued 
partnership, we will see continued progress.
    The FAA has embarked on an effort known as air 
transformation to reorganize and better align the agency's 
activities with the strategic imperatives for certification in 
the coming years. This process must enable the FAA to shift 
resources to focus on areas of greatest safety impact, 
including engagement with international regulatory authorities. 
Doing so will help the FAA retain its global leadership status 
and ensure a level playing field.
    I want to stress that last point. The FAA must be a global 
leader in aircraft certification, and adhere to risk-based 
oversight principles that focus the agency's resources on areas 
of highest risk, provide timely and consistent requirements to 
applicants, and fully support and promote U.S. exports of 
aerospace products and services. This will ensure a growing and 
competitive world-leading U.S. aerospace manufacturing base for 
the next 100 years. I am privileged to be here today to discuss 
further ways in which we can advance these important 
priorities.
    Thank you for the invitation, and I look forward to 
answering your questions.
    Mr. LoBiondo. Thank you, Mr. Hamilton.
    Mr. Thacker, you are recognized.
    Mr. Thacker. Chairman LoBiondo, Chairman Shuster, Ranking 
Members Larsen and DeFazio, members of the subcommittee, thank 
you for inviting me to testify this morning on the state of 
American aviation manufacturing. My name is Michael Thacker. I 
am senior vice president for engineering at Textron Aviation.
    Textron Aviation is the leading general aviation authority 
and the home to Beechcraft, Cessna, and Hawker brands, which 
account for more than half of all general aviation aircraft 
flying. Textron Aviation provides the most versatile and 
comprehensive business and general aviation product portfolio 
in the world through five principal lines of business: business 
jets; general aviation and special mission turboprop aircraft; 
high-performance and utility piston aircraft; military trainer 
and defense aircraft; and a complete global customer service 
organization. During the past 90 years, Textron Aviation has 
delivered more than 250,000 aircraft to more than 140 countries 
worldwide.
    Textron Aviation appreciates the efforts being made by FAA 
leadership and the support of Congress for streamlining 
aircraft certification processes. While progress has been made, 
opportunities remain to consolidate the gains and capture the 
full benefits of the changes. As an aircraft manufacturer, 
Textron Aviation's success in the certification process and in 
business requires a clear path to compliance consisting of 
three primary elements: clear and stable aircraft requirements; 
clear and consistent documentation expectations; and consistent 
and appropriate levels of regulatory involvement.
    Textron Aviation would like to thank Congress for passing 
the Small Airplane Revitalization Act. The resulting public law 
encouraged timely completion of the part 23 rewrite effort. We 
should see near-term benefits from the continuum of safety 
approach to product categorization, and over time should see 
more rapid incorporation of safety and efficiency-enhancing 
technologies through the more streamlined process of using 
industry standards to achieve consensus on new means of 
compliance.
    Textron Aviation would like to see this philosophy and 
approach expanded beyond part 23 to include other categories of 
aircraft. We believe the safety and efficiency benefits would 
transfer.
    Textron Aviation also applauds the intent of the FAA's 
ongoing transformation of the certification organization. The 
FAA's outreach and collaboration with industry to refine the 
implementation plan will be an important factor in its success. 
While the top-level reorganization helps establish a vision, 
the implementation will determine if real and tangible results 
come from the change. Textron Aviation is pleased to be 
involved with these efforts, and looks forward to continued 
engagement going forward.
    Both of these efforts move in a positive direction, but 
leave work to be done. As with the part 23 effort, Congress and 
this committee can play an important role in working with the 
FAA and industry to advance certification and regulatory 
reform. The certification titles contained in last year's 
committee-passed bill and the Senate-passed FAA reauthorization 
would have provided an important framework and direction for 
these reform efforts.
    Specifically, we support language that supported fuller 
utilization of ODA, improved validation and acceptance of 
products globally, and reduced inconsistent application of 
regulations. Passing such provisions in an expeditious manner 
this year would benefit safety, innovation, jobs, and our 
Nation's competitiveness.
    Also included in my written testimony is an appendix, 
including comments from other Textron businesses impacted by 
the topics being discussed today. This testimony is for the 
record, and any questions related to the appendix can also be 
addressed for the record.
    Before closing, Textron Aviation would also like to 
acknowledge the contributions and accomplishments of Associate 
Administrator Gilligan. We understand that she has announced 
her retirement, and we would like to thank her for her hard 
work, her consistent engagement with industry, and her efforts 
to improve aviation safety processes.
    And for all of the committee, particularly the chairman and 
the ranking member, we would like to invite you to come see 
aviation at work at any of our facilities, but particularly in 
Wichita, Kansas, the aviation capital of the world. It is 
important to understand how important this industry is----
    Mr. Larsen. I object.
    [Laughter.]
    Mr. Thacker. It is important to understand----
    Mr. LoBiondo. Overruled.
    [Laughter.]
    Mr. Thacker. It is important to understand how important 
this industry is to our Nation, and to see and touch the 
workers who make it the vibrant and important industry that it 
is. We would love to have you.
    Thank you again for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. LoBiondo. Thank you very much, Mr. Thacker. Now we will 
go to--start with questionings.
    Mr. Shuster?
    Mr. Shuster. Thank you, Mr. Chairman. My question deals 
with delegation authority. And I believe that Textron and 
Boeing have designees in your companies that respond or report 
directly to FAA. And I think it is really important for Members 
to hear and understand how that works. Because we say 
``delegation authority,'' and, you know, 5 and 6 years, 7 years 
ago I didn't understand it, and now I think I understand it 
better.
    But if you would, Mr. Hamilton, why don't you explain how 
it works? And, Mr. Thacker, maybe you could talk about the 
benefits that you get from having that. So, if you would, Mr. 
Hamilton?
    Mr. Hamilton. Certainly. So I actually come from a unique 
perspective in that I, in my previous role at Boeing, was the 
ODA administrator for Boeing in the commercial side. So I have 
a pretty good understanding of that.
    You know, the ODA is the current form of delegation from 
the FAA. Delegation has been around since the 1950s in 
different forms. And in the current ODA, what it is is the FAA 
delegates to, essentially, the company certain privileges. And 
those privileges typically are documented in a manual of some 
form. And with it come both the privileges, but also 
restrictions or things where you are not delegated.
    The delegation is a privilege to our company, and probably 
to any other company. But it is a valuable resource when you 
look at the amount of work that is going on in aerospace, and 
how to best maximize the total resources that are available to 
the industry.
    With delegation, there are some things that we have to 
submit to the FAA and request to be delegated, and there are 
other things that are just automatically delegated to us. We 
typically start with requirements, and--which feed into the 
design of the product. The certification approach--so how are 
you going to comply with requirements, whether it is through 
test, analysis, simulation, and then some form of deliverable. 
And that may be a document that says, ``Here is how we 
demonstrated compliance to the rule.'' And each of those can be 
delegated or retained by the FAA.
    Now, the FAA also has something called participation, which 
is something that has fairly been--we are seeing more of, where 
the FAA delegates, say, a flight test to you, or a test to you, 
but chooses to come along and witness it with you.
    Now, as I think Peggy pointed out, we have seen increased 
delegation, and we thank you for that. Participation, where we 
have also seen increases in, and that sometimes can delay work 
still on the critical path.
    We really like to work with the FAA on requirements 
upfront, and then allow the certification work to proceed, and 
then allow the FAA to do systemic oversight of the process, so 
that they can assure that we are abiding by our manual.
    Mr. Shuster. And is it accurate to say those folks are on 
your payroll, but they directly report to the FAA 
Administrators, or the FAA folks in--is that accurate?
    Mr. Hamilton. So they are employees of the Boeing Company. 
Boeing pays their salary. They wear a Boeing badge, just like I 
do. But they wear two hats. And I always tell them, ``You have 
to understand which hat you are wearing.'' In some cases they 
can be the Boeing subject matter expert on a specific system or 
design, and at other times they are working as an accredited 
representative for the FAA, and in that case they weren't 
wearing their FAA hat, they have to abide by the regulations 
and the guidance they receive.
    Mr. Shuster. And, Mr. Thacker, if you could, just talk 
about the things you see, the benefits that you have seen.
    Mr. Thacker. Certainly. So the benefits of the 
organizational designation are both to industry and to the FAA.
    From an industry perspective, it allows us to be able to 
move more quickly with production changes, small changes that 
are routine within our business.
    And for the FAA, it allows them to focus on things that are 
of the highest safety importance, or that are new and novel and 
unique, and that require their attention to make sure that we 
are complying appropriately when we are introducing new 
technologies.
    From a matter of being able to operate the business, it 
allows us to both continue operating the business for existing 
products, put new safety technologies mandated equipment into 
the aircraft quickly and efficiently, and still be having the 
larger new product development programs going on at the same 
time, which consume more of the FAA's involvement.
    Mr. Shuster. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Gilligan, in your testimony you talk about something 
that I would just like to have explained better. It is having 
to do with airworthiness directives. Whereas when we promulgate 
an airworthiness directive, most other aviation authorities 
apparently forward that to operators and they abide by it.
    But I--it seems from the testimony that it can't work the 
other way. That is, if EASA, you know, has one, we can't adopt 
it. Why is that?
    Ms. Gilligan. Yes, sir. The requirements that we have for 
rulemaking, legislative requirements for rulemaking, require 
that the agency make its own finding, in essence, that in fact 
there is a safety issue. We do find that at times it is 
somewhat redundant because, again, we rely on many of our 
partners for the original certification of the product. When we 
validate that, we expect them to be responsible for the 
continued operational safety, and yet we have to go through a 
process of notice and comment before we can put in place the 
directives that they may have put in place for their product in 
other States.
    We have talked with staff to see if there might be 
something that would be helpful. And, in fact, in the bill that 
was worked on last year there was some language that we think 
would be helpful, and we will certainly look to work with you 
again to try to support that.
    Mr. DeFazio. So, I mean, the net result is that, although I 
assume that many operators might go ahead and comply with it 
once they become aware of it, but it is not mandatory because 
we haven't been able to adopt a rule.
    Ms. Gilligan. That is correct. We can't enforce it.
    Mr. DeFazio. Right.
    Ms. Gilligan. We do, of course, see that many operators 
implement it. They are sometimes hesitant because it is not 
inconceivable when we go through our process we might have some 
nuance change or something that we find necessary. But 
generally they will follow what they learned from the 
manufacturer directly, and that is why we were looking to see 
if there might be some way we can streamline that process.
    But the Administrative Procedures Act right now is a piece 
of the puzzle that we are struggling with.
    Mr. DeFazio. And then the issue I raised about the European 
authority and the charges they levy to essentially rubberstamp 
what the FAA has already done, have there been discussions with 
the authority regarding that?
    Ms. Gilligan. Yes, sir, extensive discussions. We actually 
did get a small reduction shortly after we entered our 
bilateral agreement that oversees how we relate to EASA. We are 
close, I believe, to getting an agreement on how we will 
further reduce the fees on large projects. But, as I testified, 
we do already have agreement with the European Aviation Safety 
Agency that there are certain approvals that we give that they 
will simply accept, so there will be no work for them to do, 
and there will be no charge. And that has already been put in 
place.
    There are some other approvals that need some 
administrative work for which there will be minimal fees, and 
that has already been put in place. Now we are taking on the 
larger, more complex projects to reach agreement as to how we 
will reduce the time we spend and that they spend on projects, 
and thereby reduce their fees. So I hope to have some real 
progress on that, if not before I leave, not long after.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. DeFazio. This question will be 
for Ms. Gilligan.
    Cybersecurity has rapidly risen to the top of the list of 
things for us to look at, and challenges for us to figure out. 
Ensuring the cybersecurity of the national airspace and all of 
its components is a priority for this subcommittee. In the FAA 
extension, we directed the FAA to create a comprehensive and 
strategic framework for cybersecurity, and the FAA Tech Center 
has ongoing work at the cyber task force lab.
    Can you talk to us about how the FAA is utilizing that 
cyber task force lab at the Tech Center with their expertise in 
developing certification standards?
    Ms. Gilligan. Sir, as you know, we rely on the work at the 
Tech Center quite extensively. And cybersecurity, as it relates 
to aircraft design, has been an issue that the Aircraft 
Certification Service has focused on for quite a long time.
    As you point out, what we are realizing, what we 
understand--I think we always realized it--is that we need to 
be looking more holistically, to make sure that the--not just 
the aircraft, but the entire aviation system is properly 
addressing cybersecurity. And that is really the work that the 
Tech Center is helping to support.
    We have interagency groups that include many of the others, 
the other agencies that are involved in cybersecurity kinds of 
work. They bring their expertise, as well as, then, our 
expertise on aircraft design, and the FAA expertise on the air 
traffic system design. And all of that is being brought through 
at the Tech Center to test scenarios, to understand where we 
may have hazards, and how we might mitigate those risks in the 
future.
    Mr. LoBiondo. Thank you.
    Mr. Larsen?
    Mr. Larsen. Thank you. Could you just clarify? Is it--
Doctor, your last name pronunciation for me? Yes, sorry.
    Dr. Epstein. You, sir, can call me anything you like. But 
it is Epstein, usually.
    Mr. Larsen. Epstein, great. All right. Great, thanks a lot. 
So, Dr. Epstein, could you comment on Pratt & Whitney's 
experience with ODA? I noted in your written testimony you are 
looking at expanding its use as your production demand grows. 
And with that growth do you anticipate problems? Or what would 
you say would need to be changed?
    Dr. Epstein. Well, Pratt & Whitney has ODA authority for 
manufacturing. It does not have it for design certification, 
mainly because, as the FAA was rolling this out, in our design 
cycles it didn't match very well.
    But for manufacturing, since 80 percent of our content we 
purchase, and of that 80 percent, 80 percent is purchased here 
in the U.S., the supply base is of critical importance. And the 
supply base is very heavily strained because of the expansion 
in business, the concerns of safety, and it is a very capital-
intensive business to begin with. So we found that ODA for 
manufacturing has been a very powerful way for both our in-
house manufacturers, but also as we bring on new suppliers who 
have to be certified.
    We are also looking forward to the discussion on certified 
design organization, which the FAA intends to move to, and we 
think that will be a powerful tool for U.S. industry to move 
forward.
    Mr. Larsen. Yes, great.
    Mr. Hamilton, how can we move this potential 14-month 
timeline that you mentioned in your testimony with regards to 
international validation to something less than 14 months?
    Mr. Hamilton. Thank you, Congressman. So, as new entrants 
really come into the aviation industry, such as China, where 
they want to build an aviation industry, they are using 
sometimes the validations as opportunities to learn about how 
to certify products. And sometimes you might even ask that--the 
question if they were trying to get some of your intellectual 
property, and how you design the products.
    I want to, you know, cite Ms. Baker, who just returned from 
China, for the constructive dialogue they had last week. You 
know, we deliver about one-third of our 737 airplanes to China, 
and we were told that they wouldn't be able to validate those 
airplanes until the end of 2018, initially. I think, through 
the dialogue between the FAA and the Chinese authorities, we 
are hopeful that we can shorten that down to midyear of this 
year. But I think it takes a strong relationship between the 
FAA and their counterparts overseas.
    Mr. Larsen. So it is almost like it is not so much a 
process issue, it is a presence issue.
    Mr. Hamilton. You know, our industry is built so much on 
relationships. And being there, being present with them, can go 
a long ways, especially with the Chinese. We are a little 
disappointed the FAA pulled out their technical representative 
from Beijing and put him in Singapore. The Chinese kind of took 
that, I think, in a negative manner.
    But being present, being there, the importance of being 
able to travel there is vitally important. And being able to 
have those face-to-face conversations.
    Mr. Larsen. Mr. Thacker, wouldn't you agree that some 
people also have a claim as the aviation capital of the world?
    [Laughter.]
    Mr. Thacker. So I am sure there are many claims.
    [Laughter.]
    Mr. Larsen. Good. Well, then, we are back on track. We are 
back on track.
    What recommendations would you have to change the ODA 
process, if any?
    Mr. Thacker. So I think that the biggest opportunity is 
really to fully utilize the designations that are already in 
place. So, for an organization like ours, we are a very capable 
and large organization. Our ODA staffing is across the spectrum 
of all of the technical resources.
    And, frankly, we have the capacity to overwhelm the FAA 
with the amount of new product development and continuing 
product improvements that we put in place for a product line 
that today produces 21 different models. And we have three 
products, three new products, in various stages of development.
    So, the ability to, again, reduce the level of involvement 
for the things that are low-risk--you are familiar with many of 
our products. They are, for the most part, derivatives. They 
are airplanes that look similar, have similar systems. And so, 
for the past decades we have been designing with the same 
design philosophy, with developing tools along the way, 
improving the reliability, and then putting the efficiency and 
safety into the products. But the basis of what we are doing is 
well understood by both us and the FAA.
    So, it is a very low risk for the bulk of what we do for 
the FAA to go ahead and delegate most of those programs to us, 
and then pay their attention to the things that are new and 
novel, or new and novel to us, if we are taking on a new 
technology. We would like to see that be--to the fullest extent 
possible, we think that is the greatest opportunity.
    Mr. Larsen. All right, OK, thank you.
    Thank you, sir.
    Mr. LoBiondo. Mr. Graves?
    Mr. Graves of Missouri. Thank you, Mr. Chairman. I got just 
a quick question for Ms. Gilligan.
    And I am very curious as to if you can give us an update on 
the FAA's efforts to certify unleaded avgas [aviation 
gasoline], at least on a fleetwide basis.
    Ms. Gilligan. Thank you, Congressman Graves. I appreciate 
the opportunity to talk about this fabulous success, which has 
also involved the Tech Center work, as well, Mr. Chairman.
    We are very far along on identifying a replacement for 
leaded fuels for general aviation aircraft. I know you are 
familiar with it, and this committee has very much supported 
that work, as has the Appropriations Committee. We are testing 
two fuels right now. We are actually flight testing them, and 
we thank Textron and a number of other companies that have 
provided in-kind contributions to this effort by providing 
airplanes and crew to fly these flight tests so we can better 
understand whether and how these fuels will interact between 
engines and aircraft.
    The challenge for us when we finally approve replacement 
fuels, which will happen shortly, I believe 2018, next year. 
The way our process works right now is we would have to certify 
the new fuel in each engine aircraft configuration, because we 
were never before faced with the idea of a whole new fuel for a 
whole new fleet of multiple kinds of aircraft. And so we have 
worked again with this committee and staff on last year's bill 
to provide authority for us to look at this in a much more 
holistic way.
    And again, with this year's reauthorization, we will be 
asking for that continued kind of support, and be glad to 
provide technical assistance to the committee so that we can--
once we have the new fuel, we will have a much more efficient 
way to be able to approve it and get it into the system.
    Mr. Graves of Missouri. Well, the more--and I am sure the 
committee is very interested in doing everything they can to 
further that and help it along. Please keep us informed. And I 
know you do a very good job of that, but please keep us 
informed as we move forward on that.
    Thanks, Mr. Chairman.
    Mr. LoBiondo. Thank you, Mr. Graves.
    Ms. Eleanor Holmes Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Epstein, I have a question about airplane noise, 
particularly--and I know that you mentioned ways to reduce such 
noise. The noise has become such a pervasive issue that some of 
us in the Congress have formed a bipartisan coalition called 
Quiet Skies.
    Here, for example, in my own district, the District of 
Columbia, the noise from planes coming in to and going out of 
Ronald Reagan Airport have become just a major issue. People 
can't sleep. Now, there are a number of reasons for this: 
NextGen, or new flight patterns; some planes come pre-dawn or 
late at night; older planes.
    I was pleased to hear that Pratt & Whitney was engaged in 
something you call the PurePower Geared Turbofan engine. And 
you said in your testimony it will result in a 16-percent 
reduction in fuel burn and three-quarters reduction in noise 
footprint. That was what most interested me.
    When do you think we can expect to see planes with new 
engines taking off from places--major airports like Ronald 
Reagan with such equipment to reduce noise?
    Dr. Epstein. Thank you, ma'am, for the question. There are 
about 45 PurePower-powered airplanes flying.
    Ms. Norton. Would you speak up, please?
    Dr. Epstein. There are about 45 PurePower airplanes flying. 
Spirit is the sole American operator. They just started flying 
last year. More are being delivered this year. The Boeing MAX, 
737 MAX, is also an extremely quiet airplane. These----
    Ms. Norton. You have less complaints, as far as you know, 
about noise from these newer planes?
    Dr. Epstein. Well, complaints about noise is a flexible 
concept. I was once sitting next to the director of the Port 
Authority of New York, and I asked him how quiet airplanes 
would have to be so he didn't get noise complaints. And he 
looked at me like I was nuts and said, ``This is New York you 
are talking about. If they know the airplane is there, they 
will complain about the noise.''
    Ms. Norton. Mr. Epstein, this is the District of Columbia I 
am talking about. And the fact is that the noise has become a 
major issue here and elsewhere. And we are not--and we can 
compare it to noise before to noise now. So I am not asking you 
to wipe away all noise.
    I am pleased to hear you talk about more planes coming on. 
Do you believe at nationwide airports we will soon see most 
airports with such planes?
    Dr. Epstein. Yes, the narrow-body fleets are converting to 
these new types of engines over the next 2 years, so all the 
new airplanes coming in by 2019 or so will have these very 
quiet engines.
    Ms. Norton. It is very important to hear, because then we 
will be able to blame just NextGen or flight patterns, rather 
than the noise from the airplanes themselves.
    Ms. Gilligan, I have a question for you, because I 
introduced a bill last year called the No Lead in the Air Act, 
and its main purpose was to give a deadline for the use of lead 
in aircraft, and it was 2021. In your testimony you said--and 
here I am quoting you--that ``the FAA will need continued 
congressional support to streamline the process to approve the 
use of new fuels in the more than 160,000 general aviation 
aircraft.''
    What actions do you believe Congress needs to take to 
support this transition to all unleaded fuel? And do you think, 
or would you recommend that we try to include this in any 
upcoming reauthorization?
    Ms. Gilligan. Thank you, Congresswoman, for the question.
    Yes, we do believe that we need some additional support 
from Congress to be able to quickly approve the use of unleaded 
fuels in such a large fleet. Right now our standard practice 
would be to have to certify each aircraft and engine 
combination for the use of this new fuel. And given the kinds 
of numbers that you see in my testimony, we believe that that 
would just be too long and be very inefficient.
    So we did work with committee staff for the last year's 
reauthorization, and we will continue to work with staff on 
this year's----
    Ms. Norton. You think we do need, and you think we already 
are on top of what we need Congress to do?
    Ms. Gilligan. Yes, ma'am, in last year's bill that was 
passed through the committee we did see the kind of support 
that we need, and we will continue to look at the language and 
make sure we get it exactly right.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Perry?
    Mr. Perry. Thanks, Mr. Chairman, and thank the panel for 
your presence.
    Ms. Gilligan, last year's short-term extension directed the 
FAA to establish a UTM [UAS Traffic Management] pilot program 
by April of this year, preceded by a research plan. And that 
was to be submitted to Congress by January. So I am just 
wondering what steps the agency is taking to ensure that the 
pilot program is on schedule, and in regard to that, what 
extent have you engaged in your business.
    Ms. Gilligan. Thank you, Congressman. The UTM program is a 
combined program between FAA and NASA, and it is working really 
quite well. We have a team from both agencies that are focused 
on building the plan and the roadmap that you discussed, and 
there is extensive industry involvement, both in designing that 
and in looking at where and how we can pilot those concepts.
    We can certainly provide some details for you for the 
record, if that would be helpful. I don't have the dates, off 
the top of my head.
    Mr. Perry. OK, so--yes, I would like the information on 
industry. And, you know, from my standpoint, it is not just big 
industry, although a lot of great ideas come from big industry. 
But there is a lot of small-town industries that can provide a 
lot of valuable input. And I would just like to know if they 
are being included.
    And what about the schedule? Where are we at with the 
schedule, with the pilot and with the plan?
    Ms. Gilligan. Yes, I apologize. As I said, I don't have the 
dates off the top of my head, and we can certainly provide 
those.
    The smaller organizations that are part of the UAS 
community are broadly represented by some of their advocacy 
groups here in DC. And through those groups we can get 
individual small operators or small businesses involved, as 
well. We will provide----
    Mr. Perry. Is there any opportunity for individuals or 
individual companies that don't belong to a consortium that 
might have a wonderful, fabulous idea that you have never seen? 
How do they get involved?
    Ms. Gilligan. Well, we last year had a symposium, a UAS 
symposium. We will be having another one this year in March.
    Mr. Perry. OK.
    Ms. Gilligan. That will be an opportunity for----
    Mr. Perry. I need the information on that, as well.
    Ms. Gilligan. Absolutely.
    Mr. Perry. Can you let us know what the agency envisions 
for a certification process for unmanned traffic management? Is 
it going to be, like, self-certification, similar to the 
National Highway Traffic Safety Administration's guidelines for 
automated vehicles? What do you envision?
    Ms. Gilligan. Right. Those are exactly the concepts that we 
are looking at through the UTM pilot to understand how best to 
allow that community that will operate at very low altitudes to 
make the most efficient use of that airspace, recognizing as 
well there are some general aviation operations that occur in 
that airspace, as well.
    But, yes, we are looking less at something like the very 
elaborate air traffic services that we provide to large manned 
aircraft at high altitude, and something much more scalable to 
the kinds of operations that small UAS at low altitudes could 
benefit from.
    Mr. Perry. All right, great. Thank you, ma'am, for your 
service, as well. And congratulations and good luck.
    Mr. Thacker, can you share any examples of times where the 
inconsistent regulatory environment has--or interpretations or 
reinterpretations have impacted your business and your business 
line?
    Mr. Thacker. So certainly we have had that. We have had 
examples of that, both from a domestic standpoint, where 
interpretations between ACOs have been different, and on an 
international standpoint, where the validation activity that we 
have had with a Brazil or a Europe ended up resulting in months 
of delays because of a disagreement between the FAA and that 
organization, all of which, in the end, is a competitive 
disadvantage to us and our ability to deliver products to 
customers.
    So we are--for each of those validations we have a 
timeline. You have to have a customer already signed up to get 
those agencies even to take on the validation activity. So that 
customer is waiting for the airplane from the day you start the 
process. And so you end up at times losing those sales. So it 
can impact your business that way.
    In terms of the inconsistencies between ACOs, I think that 
just comes down to the type of business that flows through 
those ACOs on a regular basis. And so sometimes something that 
is very familiar in one is not in another, and that drives an 
increased level of scrutiny that can be of a disadvantage to 
one or the other entities.
    Mr. Perry. So in an instance where, for instance, or for 
example, you lose the sale, what is the relevant impact to the 
community for where manufacturing is taking place, for your 
supply chain, for your employees, et cetera?
    Mr. Thacker. So I think most of this committee is familiar 
with the state of general and business aviation. Since 2008 it 
has been a difficult business environment, to say the least. 
Every aircraft sale matters. And in a very globally competitive 
environment where for--the markets we serve, our competitors 
typically are foreign-owned companies, as well, every sale 
matters, and every sale does add up to U.S. jobs.
    Mr. Perry. Thanks, Mr. Chairman. I yield.
    Mr. LoBiondo. Thank you. Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    Ms. Gilligan, I would like to add my congratulations and 
thanks for all your service, too. You have overseen the 
tremendous changes and advances in the use of our airspace, and 
directed a lot of that, and we thank you for it. I hope we will 
continue to see women involved in the top level of the FAA, and 
they will have big shoes to fill.
    You know, we have heard recently through an Executive order 
that there is kind of this two-for-one. Two for one sounds 
great for happy hour in my district, but I am not sure it is a 
good way to run the FAA. We are going to have to remove two 
regulations for every regulation established. I believe this is 
the Executive order that President Trump signed.
    I wonder if you would comment on that. Is it going to 
affect the FAA? It is kind of wide open right now. We don't 
know who all is included, but it could be you. And how will 
that impact trying to maintain the most complex, largest, and 
safest airspace in the world?
    Ms. Gilligan. Congresswoman, we are still working with the 
Office of the Secretary and the Office of Management and 
Budget, along with most agencies around the Government, to 
really flesh out exactly what the expectations are through the 
Executive order. So we are not completely clear yet on exactly 
how it will be implemented.
    But we do know that a number of our rules, like part 23, we 
are putting rules in place to reduce burden, to, in fact, 
enable new technologies--for example, UAS. So we believe a 
number of the initiatives we have underway will fall within the 
expectations of the Executive order. But again, the details are 
still being fleshed out, so we don't fully understand exactly 
how we will implement it yet.
    Ms. Titus. It is a little scary to think that you have to 
strike two rules in order to create one new one, though, isn't 
it? Aren't the rules that you have put in place pretty valid 
and helpful, and you wouldn't want to just arbitrarily get rid 
of them?
    Ms. Gilligan. I would completely agree with you. But what 
we do see, as we saw with part 23, for example, historically we 
tended to do very prescriptive rules. We told the manufacturer, 
for example, or the operator, the specific technology or the 
specific thing they had to do.
    What we have learned with part 23 is you can describe the 
outcome that we need. It must perform this function, or the 
aircraft must fly in this way, and that allows innovation and 
it enables manufacturers, for example, to get product to market 
more quickly and as safe or safer than what we have in place 
now.
    So again, to the extent some of our new rules will have 
that kind of an approach, we believe that will fit the 
expectation of the Executive order.
    Ms. Titus. Could the industry comment on that?
    Mr. Hamilton. From our standpoint, we realize it is a 
complex issue. And I applaud what the FAA did with part 23. I 
don't think we--we work under mainly part 25 and part 21, and I 
don't think the same approach to part 25, where you throw it 
all out and rewrite it, is really what we want. I think you 
want to, like a scalpel with a surgeon, go after some selective 
regulations.
    As Ms. Gilligan said about--there may be a little bit more 
prescriptive--or they are based on propeller technology that we 
may want to go after and change those a little bit.
    Ms. Titus. When do you think this directive will be fleshed 
out, that we will know kind of what is expected of this two-
for-one?
    Ms. Gilligan. I don't know exactly. As I said, we are 
working with the Office of the Secretary and the Office of 
Management and Budget on that guidance now. So I would expect, 
as soon as----
    Ms. Titus. We have somebody that heads up that agency we 
might be able to get something done?
    Ms. Gilligan. I am sorry?
    Ms. Titus. It was an aside.
    Ms. Gilligan. OK.
    Ms. Titus. Thank you. I yield back.
    Mr. LoBiondo. Thank you.
    Mr. Lewis?
    Mr. Lewis. Thank you, Mr. Chairman, and thank you to all 
the witnesses here today. We do appreciate your testimony.
    I would like to highlight the importance of aviation 
manufacturing in my Second Congressional District in Minnesota. 
In 2014, as has been said here before, aviation manufacturing 
produced nearly $150 billion in total output; $30 billion of 
that came from general aviation purchases. It produces 5,000 
jobs in my great State of Minnesota.
    In fact, I recently had the pleasure to meet with the 
president of one of the general aviation manufacturers in my 
district. After touring his facility, I was able to see 
firsthand how manufacturing creates such a positive impact in 
my community and my district and across the State of Minnesota. 
I also saw how aviation innovation and supplemental type 
certification--modifications, I should say--help increase the 
safety for our pilots, passengers. But we need to sustain 
economic growth and industry growth alongside that.
    So I asked this particular fellow to send me some advice, 
some real input. So I received this letter from Wipaire. They 
make floats. They are the largest manufacturer of floats. And 
in Minnesota, you have got as many planes with floats as you do 
wheels. And they brought to light in this letter--which I would 
like to submit, Mr. Chairman, to the committee--they brought to 
light some of the concerns the industry has when it comes to 
continuing to innovate, improve, introduce new technologies in 
maintaining aircraft.
    Progress has been made, as we have detailed, to create a 
more efficient and effective certification program, but we need 
to do more. We need to do more to advance compliance and safety 
standard reviews. The FAA and this body need to provide our 
manufacturers with increased ability to sell products and 
services overseas.
    As the preeminent nation for aviation with a great track 
record at the FAA, our FAA-certified components in aircraft 
should be accepted in the global market. We set a global 
standard of safety. And therefore, the U.S.-made-and-certified 
products should be easily available outside the U.S.
    As I say, Mr. Chairman, I ask that this letter be submitted 
for the record.

    [The letter is on pages 69-70.]

    Let me start with a question for Ms. Gilligan. And thank 
you for your service over the years. And this is a little bit 
outside of the scope here, but it is certainly starting to 
become an issue. And that is what sort of challenges for the 
FAA can you see in the future, as we start to see so many more 
unmanned aircraft--drones, as everybody calls them.
    How does that affect FAA's mission for safety, for 
certification in some cases, just going forward? I mean has the 
agency looked at that and anticipated a plan? There have been 
some things done already.
    Ms. Gilligan. Yes, sir. We are well aware of the challenges 
that we face with the increase in unmanned systems--or drones, 
as you have referred to them. A year and a half ago we created 
a registration requirement so we could begin to know who is 
operating, and in some cases how many aircraft they are 
operating.
    And, more importantly, to use that as a tool to educate 
this new community, because many folks who are purchasing 
these, especially for personal use, are not aviators by 
background or training, and they--we used to laugh that they 
didn't know they were violating the National Airspace System 
because they didn't know there was a National Airspace System. 
And so we have----
    Mr. Lewis. Let alone the privacy in my backyard. Yes, 
right, exactly.
    Ms. Gilligan. There are those issues, as well. So we are 
well along. We have also issued an operating rule that allows 
for operation of aircraft under 55 pounds within visual line of 
sight and with some other restrictions. We have also put in 
place in those rules the ability to provide waivers if an 
operator can demonstrate that they can mitigate risk of going 
beyond visual line of sight, for example, or operating at night 
with technologies.
    Mr. Lewis. Have you incorporated a growth factor in all of 
this? I mean this is, I mean, becoming much more frequent----
    Ms. Gilligan. Yes.
    Mr. Lewis [continuing]. In every neighborhood.
    Ms. Gilligan. Yes. We believe that the rules that we have 
put in place are flexible enough to address the growing demand. 
Again, the rules right now, though, are up to 55 pounds. For 
larger aircraft right now, those are going through 
certification, and Ms. Baker can comment on how many projects 
we have to actually certify meeting our full set of standards, 
these larger aircraft that will be used for larger missions.
    Dorenda?
    Mr. Lewis. We have only got about 20 seconds, so----
    Ms. Baker. OK. Just--we have assigned that to our Los 
Angeles ACO, and currently they have 12 different projects 
working on certification of unmanned aircraft.
    Mr. Lewis. My time is just about up, but I would like to 
revisit this, as it seems to be certainly a growth industry. I 
thank you all for coming today, and I yield back.
    Mr. LoBiondo. Mr. Payne?
    Mr. Payne. Thank you, Mr. Chairman and Ranking Member. And 
Ms. Gilligan, we wish you well. I am sorry I haven't had the 
opportunity to get to know you, but your reputation precedes 
you in the work that you have done for this Nation. So thank 
you.
    The FAA's Organization Designation Authorization program 
appears, really, to be critical to allowing the agency to keep 
up with its certification process. In fact, the industry is 
calling on you to expand it.
    But can you speak more to the funding issues that plague 
the agency, and how those issues hinder your labor force and 
prevent you from expanding the ODA program?
    Ms. Gilligan. Yes, sir. And I will ask Ms. Baker to 
supplement it, as well.
    Actually, the delegation program allows us to be more 
effective with the resources that we are provided, because we 
can take advantage of the technical expertise within a company 
to work on our behalf, and to make those kinds of safety 
findings.
    But, Dorenda, perhaps you would like to speak about the 
staffing?
    Ms. Baker. Yes. As Peggy said, it is very important for us 
to use the opportunities like the Organization Designation 
Authorization, because it does leverage us. We have about 700 
engineers, whereas Boeing has approximately 900 UMs, people 
that are working on our behalf.
    So, this is something that is really important, and it does 
help us to utilize the resources that we do have efficiently 
and effectively.
    Mr. Payne. Thank you. And, you know, to the panel, but 
based on testimony by Dr. Epstein, you know, is the industry 
open, you know, to additional user fees that would give the FAA 
more budgetary cushion to expand its labor force to meet the 
increasing demands of the certification process?
    Dr. Epstein. This is the most cost-conscious of industries, 
since we are so highly competitive. So we certainly have to 
examine what the impact would have on the competitiveness of 
products and exports as to what that fee schedule might be.
    Mr. Payne. OK. And Mr. Hamilton, we all understand Boeing's 
global reach. And I would like to know your experience in 
dealing with the EASA, and how it compares to your experiences 
with the FAA, particularly in the certification process. Where 
do they have--that we meet, and vice versa?
    Mr. Hamilton. EASA, E-A-S-A, is the European equivalent of 
the FAA. And they are a newer organization. It just really came 
about a little over a decade ago to cover one European 
regulatory [sic].
    Because they are newer, they--I will say--are starting from 
a position of trying to be more efficient, more nimble. They 
are a much smaller organization than the FAA. And as we have 
talked here today, when you have critical resources, it is how 
do you use those resources most effectively.
    We find that EASA has a delegation authorization with the 
manufacturers over in Europe that takes it to a--I will say a 
further extent beyond today's ODA that we have over in the U.S. 
With it, again, comes certain requirements for oversight. But 
it is a--it tends to be a little bit more efficient, in terms 
of working with them.
    I think, from a rulemaking--the FAA has done a lot over the 
years to harmonize on rules. I think really it gets down to--
and we talked on it earlier--was about interpretations of those 
rules, where there can be different interpretations of how the 
same rule is applied. And that is kind of an ongoing effort 
that we have to work through.
    Mr. Payne. OK, thank you.
    Well, Mr. Chairman, in the interest of time, I will yield 
back.
    Mr. LoBiondo. Thank you, Mr. Payne.
    Mr. Westerman?
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the distinguished panel for being here today.
    Ms. Gilligan, this is a milestone for you and me. It is 
your last Aviation Subcommittee meeting, my first Aviation 
Subcommittee meeting. So I am reminded that a lot of people 
have come before us and a lot of people will come after us. And 
I trust they will do good work.
    I have heard it said before that the best illustration of 
trust is to step on an airplane, where you are trusting the 
people who certified that airplane, you are trusting the 
engineers, the people manufacturing, the whole system, you are 
trusting them with your life. And it is so important that we 
maintain that trust.
    As there has been a lot of discussion on the importance of 
improving efficiency of the top of certification process by 
using risk-based approaches and applying safety continuum 
principles to better focus FAA's limited resources, can you 
talk about how you apply your risk-based approach to 
certification projects, such as determining the level of FAA 
involvement and the use of delegation, which has already been 
talked about a little bit?
    Ms. Gilligan. Yes, sir. But I would ask that Ms. Baker 
provide that information. She actually runs the organization 
responsible for these certifications and has provided quite a 
bit of leadership in that area.
    Ms. Baker. Thank you for the question. We are very proud of 
what we have been able to accomplish in the area of utilizing 
the risk-based decisionmaking. We have actually implemented 
tools that will help standardize the way that our engineers 
will evaluate an individual project. And then it identifies 
areas where we would expect that it be delegated. And if it is 
not delegated, then there needs to be a justification as to 
what the certain circumstances are that would be different from 
the norm.
    You mentioned the safety continuum. That is something that 
we also feel is very helpful in our evaluation of how to put 
the right amount of rigor in the right areas. Many of you are 
familiar with our experimental aircraft certification, which is 
someplace where society accepts quite a bit of risk. It is 
maybe a recreational application. So what you can compare it to 
is something like a motorcycle. And then you can go up to the 
top of the continuum, where you have transport category 
aircraft like the Boeing aircraft, where society accepts zero 
risk. The tolerance is very, very low.
    And so, when we are looking at our projects, we want to 
make sure that we are putting our efforts in the area where we 
have the greatest level of risk if we don't take care of the 
issues at that area. Society does not accept any risk, we need 
to focus our efforts in that area.
    Mr. Westerman. So have you classified airworthiness 
requirements based on risk or impact or safety of flight?
    Ms. Baker. Yes. We actually went through all of our 
regulations. Some of them are relatively simple. You stress 
something until it breaks. Other times it is a very 
sophisticated analysis. And so things that are very simple to 
apply and have low probability of being applied inappropriately 
and the consequence of that failure is protected by some 
redundancy in the system, that would be a low-risk area. And 
then there are other areas where we are very sensitive to the 
risk.
    Mr. Westerman. So you mentioned low-risk areas. That would 
be, like, cabin interiors and seats. Do you measure the 
effectiveness of implementation by monitoring whether there is 
a lot of technical workforce involvement in those areas?
    Ms. Baker. We do look at that, but I think I need to 
clarify. There is a misconception that interior items are a 
very low-risk area. What we want to assure is that the 
passengers are protected in the event of an accident. And so 
there are complexities in the design as the airlines try to 
specialize their interiors to suit their customers.
    So we have a lot of complex interiors, as you may have 
seen, with video cameras and videos at the stations, and 
sometimes doors in between different compartments. And so it 
gets more complex than I think the average person really 
appreciates.
    Mr. Westerman. OK. And, Mr. Hamilton, you mentioned that 
not only are 90 percent of Boeing's 148,000 high-tech, good-
paying jobs U.S. jobs, but there is also an additional 1.5 
million U.S. jobs in your supply chain, which--some of those 
come from my hometown and my congressional district.
    And you also noted that the FAA must remain global leaders 
in aircraft certification, and you listed some bullet points. 
The last one was that the FAA must fully support and promote 
U.S. exports of aerospace products and services. Can you 
elaborate on what actions you believe FAA should be taking in 
this regard?
    Mr. Hamilton. Thank you. I think when we talk about 
promoting, it is about being a leader, driving relationships, 
being present. ``Promote'' used to be in the FAA charter. It 
was taken out years ago. It is in the EASA charter. We talked 
about EASA earlier. And EASA, they work hand in hand with the 
European manufacturers to promote their products to sell. And 
they are out there trying to engage with other countries even 
around how they can help them.
    We want the FAA to help promote American jobs, as well, and 
support the products that are built in the U.S. by helping us 
with the exports where we need it, or helping with key 
campaigns, and being there, working with the Government 
agencies on Government-to-Government contracts, making sure we 
have good, strong bilaterals that allow for ease of validations 
or other export requirements.
    Mr. Westerman. Thank you.
    I think I am out of time, Mr. Chairman.
    Mr. LoBiondo. You are more than out of time.
    [Laughter.]
    Mr. LoBiondo. Mr. Carson?
    Mr. Carson. Thank you, Chairman. I am very concerned that, 
as introduced, this new private panel does not include one of 
the largest users of the U.S. airspace, which is the Defense 
Department.
    I would like to hear from any of the witnesses their views 
about how privatizing air traffic control could impact the 
coordination that currently takes place, and what the impact 
would be for our national security.
    [No response.]
    Mr. Carson. OK, next question.
    [Laughter.]
    Mr. Carson. I am interested to hear--I actually introduced 
a bill--I am reintroducing a bill. I am curious about your 
views on the addition of a physical barricade outside the 
cockpit. I have heard proponents point out this measure could 
be effective and not especially expensive, but I have also 
heard objections.
    I am planning to offer an amendment to add a secondary 
barrier to all U.S. passenger carriers manufactured going 
forward. What are your thoughts? Is it an inconvenience? A 
security concern? Yes?
    Ms. Gilligan. Mr.----
    Mr. Carson. Yes.
    Ms. Gilligan. Congressman, FAA actually issued standards 
for a secondary barrier. And so it is available for designers 
to design against and for operators to request to have that 
installed. So it can be done.
    I do think there are some real questions about the location 
of it, depending on the configuration of the aircraft and the 
aircraft exits. And obviously, we would want to assure that it 
doesn't interfere with any emergency egress that would affect 
passenger safety in some way. But the standards do exist and a 
designer can design to those standards, and an operator could, 
in fact, request that.
    Mr. Hamilton. I would like to just share----
    Mr. Carson. Yes, sir.
    Mr. Hamilton [continuing]. Our thoughts on that. And again, 
I applaud the words that were in the FAA reauthorization bill. 
But I caution you about putting prescriptive requirements in 
there like a secondary barrier.
    Mr. Carson. OK.
    Mr. Hamilton. I think we should step back and really look 
at what are we trying to achieve. You want to keep the bad 
people off the airplanes, first. You know? Make sure TSA has 
strong procedures, keep them off the airplane.
    Secondly, I think you have to look at what we have done 
already. There are part 121 regulations that govern the 
airlines on how to--when a pilot comes out of the flight deck. 
And those are quite effective today. I have been on flights 
where I have been asked, as an able-bodied passenger, to assist 
in case of an emergency.
    Mr. Carson. Absolutely.
    Mr. Hamilton. And I have been willing to do that.
    Third, you have to look at the secure flight deck door that 
we instituted after 2001. It has been extremely effective.
    So, I think the risk is--really has decreased 
significantly, between what TSA has done, what the part 121 
rules govern, and the flight deck door. As Ms. Gilligan said, 
we have had airlines request a secondary barrier, and they have 
actually put it on and then taken it off because they found 
that the options through part 121 give them a little bit more 
flexibility and more efficiency in how to control the security 
of the airplane.
    Mr. Carson. All right. Thank you.
    I yield back, Mr. Chairman.
    Mr. LoBiondo. Mr. Webster?
    Mr. Webster. Thank you, Mr. Chair. I would like to follow 
up on a question the Chair asked about cybersecurity with Ms. 
Gilligan.
    The National Institute of Standards and Technology has a 
framework for cybersecurity. Does that in any way benefit your 
concerns or problems, or does it fit in any way the ones that 
would be specific to the aviation industry?
    Ms. Gilligan. Congressman, I do believe that NIST is a part 
of the interagency work that is underway to look at standards 
for cybersecurity and those kinds of things. I apologize, I 
don't have the details, and we can certainly provide that back 
to you.
    I don't know, Ms. Baker, if you are familiar with any of 
that work.
    Ms. Baker. No.
    Ms. Gilligan. No. So if we could get back to you on the 
role of NIST and their standards, clearly, they always inform 
much of the work we do in security and other areas. I am just 
not particularly familiar with the work we are doing with them 
in this area.
    Mr. Webster. It seems like the--those that are perpetrating 
cyber crimes and so forth are very aggressive, and that their 
abilities are moving along at a very fast speed. Does the 
bureaucracy in any way hinder the counter to that, in your 
particular aviation authority?
    Ms. Gilligan. First, I am pleased to say that any reports 
that we have received of cyber attacks on aircraft have been 
investigated by FAA, along with the FBI. And we have not been 
able to sustain that any attack has successfully occurred. And 
we believe that is because of the design standards we have in 
place.
    But to your point, Congressman, we do know that that 
community that is looking to hack into things is always looking 
for new ways. They are very creative. And so that is why we 
have brought together an interagency group to start to 
anticipate where might the threat be coming from, and what more 
do we need to do as we look at design and maintaining the 
continued safety of the fleet that is already in operation. So 
we have a very extensive effort in that regard, and I don't 
believe that that will be slowed down as a result of 
bureaucracy. We understand the risk is too high.
    Mr. Webster. Thank you very much. I yield back.
    Mr. LoBiondo. Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. I want to start out 
by asking Ms. Gilligan about a bilateral with the EU. I 
understand there is important revisions to the technical 
implementation procedures of this bilateral that are pending. 
It is my understanding this will help improve the validation 
process surrounding aviation products. When do you think that 
these revisions will be adopted?
    Ms. Gilligan. Congressman, Ms. Baker actually negotiated 
those revisions, so I will ask her to respond to you.
    Mr. Lipinski. Thank you.
    Ms. Baker. You are probably familiar with our validation 
improvement roadmap. And we were working through that to rely 
more heavily upon each other, and in some cases fully on each 
other.
    The latest revisions we had gone forward to try to take a 
pretty aggressive approach, and had to take a bit of a step 
back so that we could think through some of the things that we 
wanted to do that were much more ambitious. So we are going to 
be issuing what we call a TIP Rev 5a in the near term, in the 
next few weeks. And then we will, by the end of March, issue a 
TIP Rev 6. And in those what we are trying to do is, again, 
rely more heavily upon each other, avoid the redundant work. 
And, as we move forward past what were very basic, complex 
modifications to aircraft, we are going to start incorporating 
full reliance on each other for things like engines and 
propellers and then, later, small airplanes.
    Mr. Lipinski. And that is something that is very important 
and gets done as quickly as possible, because it would be very 
helpful to the American aviation industry.
    I want to check with the chairman. I think the clock didn't 
restart at the beginning of my question time, because I don't 
think I am that far along. So I just want to check with--make 
sure that was the case. OK. I won't take another full 5 
minutes, don't worry. Thank you.
    The FAA's Continuous Lower Energy, Emissions, and Noise 
program, also known as the CLEEN program, is a Government-
industry research partnership which has leveraged millions of 
dollars of private money to develop and demonstrate certifiable 
aircraft technologies that are at high states of technology 
readiness. This program has worked very well, in terms of 
helping to actually produce aircraft that have lower noise, 
greater efficiency.
    So I know that both Boeing and then Pratt & Whitney have 
been participants in a CLEEN program and Dr. Epstein had 
mentioned it in his testimony. So, Dr. Epstein and also Mr. 
Hamilton, can you speak about how these investments can serve 
as a catalyst for acceleration of new technology and its impact 
on American competitiveness in aviation manufacturing?
    So Dr. Epstein?
    Dr. Epstein. These get to the heart of the competitiveness 
of our products. Airlines buy aircraft because of their fuel 
efficiency. Communities welcome aircraft because of the lack of 
noise. And these are both focuses of the program.
    Many of these technologies are just entering service now. 
And I see that the output from the CLEEN I program, which is 
just finishing up, will probably be in the next new airplane 
that will enter service in the next decade. And, in fact, as we 
speak we are running an engine down in West Palm Beach 
demonstrating very low noise capabilities and very high 
efficiency of new types of turbofan engines.
    So, it is--we put up a lot of money for part of this 
program. So I think it is a great example of the catalytic 
effect that a relatively small Federal investment can make on 
this industry. And the FAA investment is focused on the 
relatively near term, which, for us, is 8 to 10 years, which is 
what it takes to prove a technology and then develop a product 
from it.
    Mr. Lipinski. Thank you.
    Mr. Hamilton, you want to add anything to that?
    Mr. Hamilton. I would agree that I think it is a great 
partnership with industry and the Government in terms of really 
promoting new technologies. We have flown an eco-demonstrator 
roughly every year with--to go prove out these technologies. 
And it allows us to accelerate the incorporation of those into 
new products.
    So similar, the Europeans have a very similar-type 
investment plan over there, and I think this is a good product.
    Mr. Lipinski. Well, this program has to be reauthorized, 
and I am hopeful that it is something that we are going to be 
able to do in the FAA reauthorization. I think it is something 
that has been very helpful to the American aviation industry, 
helped the competitiveness. And so I think it is something we 
need to continue.
    So, with that, I will yield back. Thank you.
    Mr. LoBiondo. Mr. Duncan?
    Mr. Duncan. Well, thank you very much, Mr. Chairman. And 
Ms. Gilligan, why are you leaving? You are much too young to 
retire.
    Ms. Gilligan. Thank you, sir. But it seems it is time.
    [Laughter.]
    Mr. Duncan. Well, thank you for your work. I am interested 
in a lot of things. But I just want to ask about one thing. And 
this has been a long-time concern of mine. But 3 years ago this 
month we had testimony in this subcommittee that the--by Calvin 
Scovel, the inspector general, that the NextGen program had an 
original cost estimate of $40 billion, but that it was more 
likely to run two to three times that much. And it seems to me 
you are talking about some awfully big money if you are talking 
about getting up into costs possibly as much as $120 billion.
    And I am just wondering, can you tell us where we stand 
today, 3 years later? And are costs still spiraling out of 
control, and what is the latest estimate or guesstimate as to 
the end cost of that program?
    Ms. Gilligan. Sir, under Administrator Huerta, what we have 
done is reach out to industry to align our program with their 
priorities. We have a NextGen Advisory Committee, which is 
chaired by one of our major airlines, and all of the 
stakeholders who have a part in the system are members of that.
    And within the last 2 years--2 or 3 years now--we have 
requested that set of priorities from industry, and we have met 
all of their requests. So we are working very closely with 
industry. There are already measurable benefits for Delta, for 
example, at Atlanta, and a number of other major airlines at 
major airports. They are seeing the benefits of the 
efficiencies that come with the NextGen system. We can provide 
for you all of the detailed cost and benefit numbers, but I do 
believe industry would concur that we are on the right path, 
and that, in fact, the system is beginning to demonstrate the 
benefits that we have all anticipated.
    Mr. Duncan. Well, you also testified that many of the key 
parts of the program that had original goals of being done by 
2025 were going to have to be extended out to 2030 and even 
2035. Do you--are we back on a better schedule than that, or--
--
    Ms. Gilligan. Sir, I apologize, I am not familiar with the 
inspector general's testimony that you are referring to in the 
safety organization, I don't manage that program. But we work 
very closely with the NextGen program. And again, over the last 
several years, we have been delivering new systems and new 
technologies. The most recent one is the data communications 
technology, which is, in many locations, ahead of schedule.
    So again, I think we would like to offer for you, our 
staff, the details of exactly how the program has been managed 
over these last 3 to 5 years, and show you the progress that we 
are making.
    Mr. Duncan. All right. What I think would be good or 
helpful for the committee is to have somebody take a look. This 
testimony is mentioned in the briefing paper that we got, and 
it was testimony that--in a hearing on February 5th of 2014. 
And I would like to know where we stand, particularly on the 
costs and other issues that Mr. Scovel raised at that time, and 
whether it has gotten better or worse since then, and some of 
the specifics.
    Ms. Gilligan. Yes, sir. We can certainly provide that. I 
believe there has been additional work by the inspector general 
since then, and very detailed responses by FAA to the inspector 
general recommendations. So we will make sure that you and your 
staff have all of that information.
    Mr. Duncan. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Mitchell [presiding]. The Chair recognizes Mr. LaMalfa 
for 5 minutes, please.
    Mr. LaMalfa. Thank you, Mr. Chairman. Obviously, we know 
the importance of the aviation manufacturing industry in this 
country for many decades, and what an economic as well as 
technological advancement that means for all of us here. So 
being a California Member, I have seen how we have been 
devastated in our economy by the departure of much of the 
industry. And so I am concerned about the regulatory load on 
that.
    And then I also hear in committee here about people 
concerned about the plane sound. I live on a farm in my real 
life, and nothing makes me happier than hearing a nine-cylinder 
Pratt & Whitney radial going over my fields in the spring. So--
and that and the stuff--the airplanes don't drive me crazy, it 
is the sirens all night long here in town. So--but I am not 
used to that. So, anyway, keep hanging in there.
    But for Mr. Epstein, I met you in California there. And so 
much of the aerospace has left the State. And primarily--you 
know, there was a downturn in the economy, but also they are 
showing up in other States. So can you reflect a little bit on 
what you have seen with the regulatory load in the State of 
California that has caused--I think your last facility, you 
know, had pulled out a couple years ago that was making the 
auxiliary power units for aircraft. And what made California 
less competitive elsewhere, and what lesson can we learn that 
doesn't completely chase the industry out of the country, 
which--I sure hope that we can maintain domestically built 
aircraft and all its related components.
    Dr. Epstein. Well, the engine business is more constrained 
in size in the aircraft certification. So the engine 
directorate is based in Burlington, Massachusetts. And we 
almost exclusively deal with them, as opposed to the aircraft 
directorate, which is more broadly based around the country, 
including Los Angeles. So I can't really comment on that.
    UTC has very extensive facilities, I think 140 acres in San 
Diego on the waterfront, where we are, I believe, the world's 
oldest manufacturer of nacelles, and continue to do that. The 
APU business was moved within UTC from UTC aerospace systems, 
which is when it was in San Diego, to Pratt & Whitney. And it 
was essentially--it was a very small facility. And so it was 
moved to----
    Mr. LaMalfa. Don't take me wrong, sir. I am not faulting 
you for your business decisions that may or may not be made. I 
am just--in general, if you are finding an atmosphere of 
regulation that is not conducive, whether it is California, 
anywhere. I mean what lessons can we apply from what you or 
some of your colleagues have had to do on trying to find a more 
friendly place of doing business, and what could we apply 
towards national policy we would make here?
    Dr. Epstein. The engine directorate is, I think, a jewel 
for this country. And I think what we can do as a policy issue 
is make sure that in any FAA reorganization its deep expertise 
in the peculiar requirements of the engine business not be 
diluted or otherwise lost.
    The organizational development authority was a step 
forward, and I think the certify design organization, which Mr. 
Hamilton mentioned, is another process by which there is more 
delegation to qualified industry, reducing the load on the FAA, 
and allowing industry to be more flexible. And then we would be 
more aligned with the European regulators, and, in particular, 
the flexibility they give to European manufacturers.
    Mr. LaMalfa. So flexibility from FAA would be pretty key.
    Dr. Epstein. Oh, it always has been.
    Mr. LaMalfa. Mr. Hamilton, do you care to touch on that, as 
well?
    Mr. Hamilton. Well, again, I think it is how do you best 
use the total resources that are available around 
certification, whether they are in the industry or whether they 
are at the FAA. And I think we have got to constantly look at 
how to best efficiently use those limited resources, given the 
production rates are going up, given that there is development 
programs going on constantly. We are doing a lot more 
certification work than we have ever done before.
    With respect to California, sir, though, I just want to, 
you know, for the record just state we are very proud of the 
folks that we have in California that continue to support and 
to do design work in California to fly airplanes.
    Mr. LaMalfa. I appreciate you hanging in there. It is a 
hard State to do anything in, so I know you are trying.
    Real quickly, a one-liner, Ms. Gilligan. We have a 
situation in an airport up my district, the Tulelake Airport, 
which has been required to do a perimeter fence as per safety 
regulations. It has been running into some issues with that. I 
would just like to ask if you could look into that, please, and 
help expedite, so that the airport people know what to do and 
how to complete that for their safety requirements.
    Ms. Gilligan. Certainly, Congressman. I will take that 
request back to our Associate Administrator for Airports, and 
make sure that they are focused on that issue.
    Mr. LaMalfa. Thank you so much.
    Ms. Gilligan. Thank you.
    Mr. Mitchell. The Chair now recognizes Mr. Rokita for 5 
minutes.
    Mr. Rokita. I thank the chair and I thank the witnesses for 
their testimony. Apologies, I was in another hearing and just 
got here recently, but wanted to have maybe what would be some 
followup questions with regard to what was said and asked 
earlier on today.
    Ms. Gilligan or Ms. Baker, with regard to the part 23 
rewrite, I am reading your testimony and I see that it is going 
pretty good, in your view, and it seems that industry is 
basically saying the same thing. And I am reading in your 
testimony where you describe how you are now taking the part 23 
rewrite not just to new design sheets of aircraft, but to 
equipment, avionics and such. You mentioned in your testimony 
that you are focused on equipment that actually improves the 
safety, especially in general aviation aircraft, and that is 
fair.
    But then you talk about a prototype you are working with 
industry on in bringing that--the same rewrite features to 
avionics that are just generally better. And by better, you 
intuitively also get safer, right?
    So my question would be how is this prototype program 
going? What results can we see, and when? And how do you define 
what category of avionics you are going to focus on next?
    Ms. Gilligan. So, Congressman, let me start and I will ask 
Dorenda to give you more detail. But I think you are familiar 
with the efforts that we have had so far have been to enable 
what we call nonrequired safety equipment to be able to be 
installed. Because it is not required, it is a much lower level 
of certification or certitude. But it is to give pilots 
situational awareness. The new prototype is looking at how can 
we streamline the process for certified systems to be able to 
get those into general aviation at a lower price point.
    Mr. Rokita. Oh, so you are not even in the certified space 
yet. You are--certified space as it regards that angle of 
attack indicator, but you haven't moved beyond that in the 
certified world?
    Ms. Gilligan. Well, we have. So let me ask Dorenda to give 
you the details.
    Mr. Rokita. Thank you.
    Ms. Gilligan. Because, as you know, it always gets 
complicated.
    Ms. Baker. What we are trying to do is to find out, again, 
back to that safety continuum, how much rigor needs to be 
applied. She mentioned the nonrequired safety-enhancing 
equipment, and we recognized that we were applying too much 
rigor to equipment that wasn't even required. So we wanted to 
get that into the aircraft as quickly as possible, because it 
is very important for loss of control and controlled flight 
into terrain to give the pilots a situational awareness.
    Things that we are looking into now is scaling the 
production of those appliances and parts, because it makes a 
difference on how much scrutiny they undergo in the production 
of the part. And I think it has been mentioned before. And 
Michael might even have some first-hand knowledge of some of 
the things that we are doing, along with the General Aviation 
Manufacturers Association and the Experimental Aircraft 
Association, one representing people who want to fly these, and 
the other the manufacturers that have the higher end equipment. 
But we are coming together and finding ways that we can work 
both parts of the industry, such that we can come up with a 
good solution for both----
    Mr. Rokita. Are you finding tension in the manufacturing 
world between those that went through the process under the 
legacy certification processes, and therefore invested a lot of 
money, and they need a return on that investment--that is how 
you hire people and stay in business--versus this new way of 
doing things? Is there that tension? And how are you resolving 
it as the Government referee, so to speak?
    Ms. Gilligan. Yes. Well, actually, it is interesting, you 
are right. There was tension because there were--one, not 
because I did it and I had to go through the hard process, but 
more that we know that the process that we have today provides 
a safe product, and we don't want the reputation of the 
industry degraded.
    And so, instead of being a referee, I actually asked them, 
``Why don't you guys go sort it out together and find an area 
where you both agree that it is beneficial for both?'' And they 
came back to us with some proposals, which were very helpful.
    Mr. Rokita. OK. So I am always a little bit schizophrenic 
when I see the word ``prototype'' coming from an agency, 
because on one hand it looks like you are thinking outside the 
box, and that is wonderful, but then it also means that it is a 
prototype, which means it may always be a prototype.
    When do we go full-scale with this kind of thinking?
    Ms. Gilligan. We are actually seeing results today. What we 
continue to do is just keep pushing it. I know we call them 
prototypes, but it is really kind of the entrance of the things 
that we are doing----
    Mr. Rokita. Pushing it, when can I see that this works, and 
that you guys are embracing this less rigorous kind of 
situation because it is not needed----
    Ms. Gilligan. Again, I think you already should see results 
from, like, the angle of attack indicator and some of the 
things that----
    Mr. Rokita. No, no, no, I see results, but when are we full 
scale? You are in prototype mode. When are we going to make 
this the practice.
    Ms. Gilligan. It is the practice.
    Mr. Rokita. OK.
    Ms. Gilligan. We are still trying to assure that we have 
got the checks and balances that are in place to make sure that 
we don't go too far.
    Mr. Rokita. You are talking out----
    Ms. Gilligan. That is what I----
    Mr. Rokita. You are saying two different things to me.
    Ms. Gilligan. I know, I know. But what I wanted to share is 
why we call it prototype is in one case we went--what industry 
felt we went too far. We issued something that everybody was 
very, very excited about. But, in retrospect, we realized that 
that was maybe just a little bit too far out of the box, so we 
scaled back. So we are pushing forward, but in some cases we do 
need to reassess what we did and whether or not that pushed the 
envelope beyond what was acceptable to industry.
    Mr. Rokita. So I am going to ask a question on the record 
for you to follow up with. I just--perhaps because I missed 
some of the hearing, and I apologize again--I would like more 
detail on that pushback so I understand the issue better.
    Ms. Gilligan. It would be great to talk to you privately on 
that. So that would be----
    Mr. Rokita. No, could you just----
    Ms. Gilligan. In the record?
    Mr. Rokita [continuing]. Send me a letter? Yes.
    Ms. Gilligan. OK.
    Mr. Rokita. Yes. Thank you.
    Ms. Gilligan. OK, will do.
    Mr. Mitchell. Thank you. The Chair recognizes Mr. Meadows 
for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each of 
you--Ms. Gilligan, and thank you for your service, and 
congratulations on your upcoming retirement. And so I am not 
going to ask a bunch of detailed questions. I would like to 
make two comments.
    One is with regards to the implementation of NextGen. If 
you will carry the message back is that we continue to have 
hearing after hearing after hearing with no specificity in 
terms of benchmarks and how we are going to accomplish it, 
other than the request for more money. And so, in doing that, I 
looked into it in a much more detailed way than ever before, 
and it is too segmented to actually, at this point, have any 
real results, even though you may mention that it is having 
great results in Hartsfield-Jackson Atlanta International 
Airport, perhaps not as much in Charlotte, North Carolina.
    And so, when we look at those, if you would carry that 
back, that it is critically important that we have more defined 
benchmarks and, really, timetables as it relates to some of the 
implementation. Talking to some of your folks, it seems like we 
are moving some of the money from NextGen into other areas of 
FAA that would actually, in my mind, be a problem from an 
appropriator's standpoint. And I am not making an accusation, I 
am just saying if you would ask them to look at that.
    And Ms. Baker, let me come to you. Because what Mr. Rokita 
was just talking about, it is critically important, from a 
certification standpoint and a general aviation standpoint, 
that we get it right. So what I would like for you to do is 
give this committee five recommendations on how we can get the 
Government out of that and allow the certification process to 
go in a more streamlined and expeditious manner, so that we are 
not going back and forth on the timelines that he is talking 
about with prototypes and what is success and what is not 
success.
    So could both of you do that?
    Ms. Gilligan. Yes, sir.
    Mr. Meadows. Ms. Baker?
    Ms. Baker. Absolutely. And we didn't get a chance to make a 
plug for our blueprint. We are working on a blueprint which 
will provide a lot of recommendations, and we are doing that in 
collaboration with industry.
    Mr. Meadows. All right. Mr. Chairman, I yield back.
    Mr. Mitchell. Thank you very much. The Chair recognizes Ms. 
Lawrence for 5 minutes.
    Mrs. Lawrence. Thank you, Mr. Chair. I am sure that 
everyone in this room will agree when I state that in today's 
global economy, a modern transportation infrastructure network 
is critical. I represent the 14th District of Michigan. My 
district directly employs over 25,000 employees in 
manufacturing, and tens of thousands indirectly. The aerospace 
manufacturing industry directly employs more than 200 employees 
in my district, and 1,000 more through indirect partnerships.
    So my question is for Ms. Gilligan. While we discuss the 
current state of civil aviation manufacturing, including the 
regulatory and the general health of the industry, I want to 
talk about the workforce of the industry. FAA's primary mission 
is ensuring aviation safety. The more than 14,000 FAA air 
traffic control specialists do a great public service.
    So my question is, while FAA works through this surge in 
the hiring process, I want to know if your agency has the 
capacity and infrastructure in place to train these new works. 
How are you managing this surge in hiring? And what are the 
challenges you currently face?
    Ms. Gilligan. Congresswoman, I can provide you some of 
those details, although I am not responsible for the air 
traffic service provision, and we can get you additional 
details.
    But I can tell you that FAA has planned for the hiring 
surge, and they have continued to hire, even while we are under 
the continuing resolution, for example, and through these early 
months of the new administration. We have been authorized to 
continue to hire air traffic controllers, as well as other 
safety technical specialties, and that hiring continues. We 
have a training facility down in Oklahoma City. Those classes 
are prescheduled, and they are filled, and we will be able to 
continue to meet the hiring requirements for this year.
    Mrs. Lawrence. With that being said, Mr. Epstein, in your 
written statement you mention the demand for the next 
generation of aerospace engineers. I cochair the Congressional 
Investment in America's Skilled Workforce Caucus, and our 
mission is to scale up the American workforce. Can you 
elaborate on the need for a skilled workforce in this critical 
aerospace industry, as well as in U.S. manufacturing?
    Dr. Epstein. Yes. The aerospace industry in particular has 
a bimodal age distribution, where there is a large cohort close 
to retirement with vast skills, a hole reflecting lack of 
hiring for decades----
    Mrs. Lawrence. Yes.
    Dr. Epstein [continuing]. And then a group of enthusiastic 
young people. This extends from the more technical aspects of 
aerospace engineering, which is working with universities, but 
also to trained workers on the factory floor, who are just as 
important.
    And so, you will see that the industry is starting--which 
has long worked with universities around the country, as has 
the FAA and NASA, in terms of fostering engineering education--
is now working with the community colleges to increase training 
available--and encourage young people.
    Aerospace is so successful in the U.S. because we have had 
some of the best engineers the world has ever seen build up our 
capacity. If we can't get the same quality of both----
    Mrs. Lawrence. Yes.
    Dr. Epstein [continuing]. Engineers and manufacturing 
workers to go into this business, we won't have the same future 
that we have had in the past. So industry is critically focused 
on this, because we really are our people.
    Mrs. Lawrence. Thank you.
    Mr. Hamilton, can you comment on what Boeing's effort is to 
invest in the skilled trade workforce, please?
    Mr. Hamilton. Thank you. Yes. So the bimodal distribution 
of aerospace workers, I think we have been talking about that 
since I was on the early bimodal stage back 32 years ago. It 
exists, and we do have retirements. But luckily, people space 
out their retirements.
    Some of the STEM activities that are in efforts across the 
country, I think, are very effective. I think we are seeing a 
lot more interest in engineering, in the sciences and 
technologies, from women, from very diverse populations, and it 
is great. And I will tell you that the younger workforce that 
we are bringing in is highly capable. And I am excited for 
them, because I think when I look at what they are capable of 
doing----
    Mrs. Lawrence. Yes.
    Mr. Hamilton [continuing]. I think they will carry on.
    Mrs. Lawrence. I just want to close with this. We recognize 
that the average age of a skilled trade worker is 53. We do 
have a gap, and it is very encouraging to hear that you 
understand it has to be a partnership between the industry who 
is producing the jobs and have the need for the skilled 
workforce, and for us in Government to support that and nurture 
that, and for these community colleges.
    So thank you so much, and I yield back, sir.
    Mr. Mitchell. Thank you very much. The Chair recognizes Mr. 
Woodall for 5 minutes.
    Mr. Woodall. Thank you, Chairman Mitchell. I appreciate 
that and I appreciate you all spending an extended morning with 
us.
    Dr. Epstein, I particularly appreciate your mentioning 
Columbus, Georgia, and your work down there. Mr. Thacker has 
some work going on in Columbus, Georgia, as well. But when you 
spend an extra $300 million to put in more capacity, when you 
recognize that you have an incredibly talented workforce, an 
incredibly robust training system as we have there in Columbus 
State, it means a lot to us in the community, and I appreciate 
you recognizing that for the entire panel today.
    My question is actually for our panel member that we won't 
have back here again. Ms. Gilligan, leadership is hard. Being 
an agent of change is hard. Setting expectations, as the 
article I branch of the article II branch, is hard. Help me to 
set my expectations. When you have a leadership change, as we 
will soon have, should I expect the reforms we have talked 
about today to be employed more rapidly because folks are not 
invested in the status quo, they are able to get out there and 
lead, make all their mistakes in the first 90 days? Or should I 
expect things to be much slower than if we had a continued and 
steadied hand on the till?
    Ms. Gilligan. I think you can expect that things will 
continue to move along the plans and programs that we have 
established with industry. So, as Ms. Baker mentioned, we have 
agreements with our industry of what we will do and when we 
will do it on both sides, what we will do as the FAA and what 
they must do in order to meet their responsibilities and be 
accountable, as well.
    I have a very strong management team in the aviation safety 
organization, and we have strong support from the 
Administrator, who continues his 5-year term until next 
January. I don't expect you will see a ripple in our continued 
success in this area. Very much as they describe it, it will be 
like the fist in the bucket of water. It will fill the space 
quickly, and I think you will see that we are committed to 
these improvements, and we will continue to work with industry 
to accomplish what we have committed to do.
    Mr. Woodall. Can I ask that question of our industry 
witnesses, too? Depends on which poll you look at. Are folks 
optimistic about the future? Do they have anxiety about the 
future? Certainly we have a big leadership change going on, 
haven't had one like this in 8 years. What is industry going to 
tell me?
    Do you share Ms. Gilligan's confidence that it is just 
going to be the fist in the bucket of water and you won't 
likely detect any ripple at all? Or, is there real opportunity 
to either get this right or get this wrong as the new 
administration takes over?
    Mr. Thacker?
    Mr. Thacker. I would be happy to comment on that. I do 
think that the actions that are in place give us the 
opportunity to carry the momentum forward. But I do think it is 
important that this committee and Congress overall continue to 
provide the support and impetus to make sure that we carry them 
forward to conclusion.
    And the articles that were in the proposed bills last year 
provided a great framework for us to be able to move forward, 
and we would like to see those same sorts of proposals put on 
the table this year, and put into the reauthorization act.
    Mr. Woodall. The Boeing nod of approval there?
    Mr. Hamilton. I echo those comments, as well.
    Mr. Woodall. All right. And the largest employer on the 
panel from the great State of Georgia? Dr. Epstein, is that 
also a nod of approval?
    Dr. Epstein. It is, indeed, sir.
    Mr. Woodall. Well, I am very grateful to you for being here 
today and, again, spending the morning and now into the 
afternoon with us.
    So, Mr. Chairman, I yield back.
    Mr. Mitchell. Thank you very much. The Chair recognizes Mr. 
Larsen for a couple of questions.
    Mr. Larsen. Thanks. Mr. Thacker, just to--for the record, 
the greatest--what would--what changes would have the greatest 
effect in the shortest amount of time, from Textron Aviation's 
perspective, at the FAA?
    Mr. Thacker. So again, from an impact standpoint, full 
utilization of the designations that we already have in place 
is the fastest path to be able to make a difference for us and 
for the FAA. Beyond that, to carry forward the philosophy that 
has been put in place with the part 23 rewrite, and take that 
philosophy, albeit maybe not in exactly the same manner, 
forward into part 25 and other parts applicable to other 
aircraft categories would be a great move forward, in terms of 
streamlining the overall regulations to make the entire process 
less prescriptive and more appropriate.
    Mr. Larsen. OK, thanks. And I will get the honor of asking 
your last question in front of this committee. And it is going 
to be easy. All I want is--you don't even have to answer it.
    I just want to request that you all prepare a briefing for 
us to look at the consistency of the application of 
certification and regulation from region to region within the 
FAA. That is one of the issues we discussed a couple years ago, 
and I wanted to get an update on that, what we were doing to 
train and retrain folks so that folks aren't forum-shopping, if 
you will, for the best deal.
    Ms. Gilligan. Thank you, sir. Ms. Baker will be glad to 
present and prepare that for you. And it very much feeds in to 
the air transformation that we have underway. Much of what 
drives that decision is to make sure we can provide consistent 
guidance and application of the standard. So thank you very 
much.
    Mr. Larsen. Great. Thanks a lot. Thanks.
    Thanks, Mr. Chairman.
    Mr. Mitchell. If there are no further witnesses or 
questions today, I want to thank the witnesses for their 
testimony and their time.
    I want to wish Ms. Gilligan all the best in retirement. I 
tried that; look what happened.
    [Laughter.]
    Mr. Mitchell. And I thank the Members for their 
participation.
    This subcommittee stands adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
                     [all]
                     
                     
                     
</pre></body></html>
